<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                       WEDNESDAY, MARCH 11, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:30 a.m. in 
room SD-192, Dirksen Senate Office Building, Hon. Thad Cochran 
(chairman) presiding.
    Present: Senators Cochran, Shelby, Murkowski, Graham, 
Blunt, Moran, Durbin, Leahy, Murray, and Schatz.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. JOHN M. MC HUGH, SECRETARY


               opening statement of senator thad cochran


    Senator Cochran. The committee will please come to order.
    Today the Subcommittee on Defense Appropriations will begin 
its hearing on the fiscal year 2016 budget request submitted by 
the United States Army.
    We are very pleased to welcome the Honorable John McHugh, 
Secretary of the Army; and General Raymond Odierno, Army Chief 
of Staff.
    As we meet today, the Army remains heavily engaged in 
operations around the world, with more than 143,000 soldiers 
forward deployed and 19,000 Reserve soldiers mobilized, and 
soldiers continue to train at home for future deployments.
    We are very sorry to hear this morning about the Black Hawk 
helicopter that went down off the Florida coast last night on a 
training mission, which was carrying seven marines and four 
soldiers. Our thoughts are with the families, and our prayers 
as well, as the search and rescue efforts are under way.
    This past year has been one of many challenges and 
successes for our Armed Forces and the U.S. Army in particular. 
Men and women in uniform and their families are performing 
remarkably well, and our Nation owes them a debt of gratitude 
for their service. The fiscal year 2016 budget request proposes 
a number of significant changes and important budgetary issues 
for the Army that will receive our careful attention. We look 
forward to working with you during this year's appropriations 
process to ensure the support of needs of the Department of the 
Army and its important role in protecting our national security 
interests.
    This subcommittee also recognizes the uncertainty of the 
current fiscal environment and the impact it has on the Army. 
If the Department of Defense has to live with the statutory 
Budget Control Act caps in fiscal year 2016, the Army has 
already indicated that its ability to fulfill national security 
requirements and meet obligations under the current defense 
strategy would be put at significant risk. We appreciate the 
complexity of the fiscal year 2016 budget and look forward to 
your comments on the impact of sequestration on Department of 
the Army operations, readiness, and modernization efforts.
    We appreciate and commend you for your distinguished 
service to our Nation, as well as the dedication and sacrifices 
by all the men and women of the U.S. Army. Your full statements 
have been received--we appreciate that--and they will be 
printed in the record.
    We are pleased to thank the distinguished ranking member of 
the subcommittee and the Senator from Illinois, Mr. Durbin, and 
we recognize him now for any opening remarks he would like to 
make.


                 statement of senator richard j. durbin


    Senator Durbin. Thanks, Mr. Chairman. In the interest of 
time, I'm going to ask my opening statement be made part of the 
record.
    I had the opportunity to sit down with General Odierno and 
Secretary McHugh and their staff yesterday and go through a lot 
of specific items in detail, and I'll save some questions and 
turn it back to you, Mr. Chairman, to proceed.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming Secretary 
McHugh and General Odierno to our hearing to review the Army's budget 
request for fiscal year 2016.
    Secretary McHugh, I wanted to thank you for your visit to Rock 
Island Arsenal last fall. I'm pleased to report that the Joint 
Manufacturing and Technology Center that we toured is still going 
strong. I'm sure you'll agree, the JMTC is the critical manufacturing 
backstop for our Army and our military. But I'm also happy to report, 
according to information I received earlier this week, that they are 
actually returning money to Army Program Managers because they are 
manufacturing the required material for less than the Army estimated. 
That's a good return on investment for the taxpayer in tough fiscal 
times. Thank you for your continued support.
    General Odierno, this may be your last hearing in front of this 
committee as Chief of Staff. Thank you for your service to our Army and 
our Nation during some challenging times.
    As you both know intimately, the Army is going through its most 
fundamental transformation since the end of the Cold War. First, the 
Army is getting smaller: more than 80,000 Active Army soldiers, 8,000 
National Guardsmen, and 7,000 Army Reservists have been reduced since 
the height of the surges in Iraq and Afghanistan.
    Second, the Army is continuing efforts to modernize its equipment 
in several large acquisition programs. The AMPV ground combat vehicle, 
the Apache modernization effort, the Future Vertical Lift helicopter 
program, and the Joint Light Tactical Vehicle--each of these programs 
will cost billions, if not tens of billions, over the next decade. This 
modernization is underway, although it is not yet clear what will 
happen to sequestration in the next year.
    Secretary McHugh, General Odierno, you have also been vocal about 
your concerns with sequestration, particularly the ways it could harm 
readiness and waste acquisition dollars through unavoidably inefficient 
management of procurement programs.
    Finally, even though this hearing will have plenty of discussion 
about budget levels and weapons programs, we cannot overlook the well-
being of the women and men who serve in our Nation's uniform.
    We are all committed to the quality of life for those who may be 
called to stand in harm's way. Sometimes that means investing in 
improving servicemember housing, or repairing failing schools that 
educate the children of our Soldiers. At other times, it means taking 
stronger action to preserve the health and welfare of our 
servicemembers.
    The defense appropriations bill signed into law in December 
eliminates the 5 percent discount that military exchanges provided on 
cigarettes and other tobacco products. This is a small step, but not 
enough. Studies have shown that tobacco use costs the Department of 
Defense at least $1.6 million each year in tobacco-related medical 
care, increased hospitalization, and lost days of work in the active 
duty component alone.
    This means the higher rates of use for cigarettes and smokeless 
tobacco isn't just a quality of life issue for servicemembers. It is 
also a budgetary issue. I have spoken with Secretary McHugh and General 
Odierno about this issue before, as I have with the leadership of the 
other Services, and I hope we can work together to find other ways to 
tackle this serious problem.
    Mr. Chairman, I join you in thanking the witnesses for their 
service, and I look forward to their testimony.

    Senator Cochran. Thank you very much. The Senator of the 
Day Award goes to our distinguished friend.
    Senator Shelby.
    Senator Shelby. I will forgo an opening statement. I look 
forward to the testimony and questions. Thank you, Mr. 
Chairman.
    Senator Cochran. Senator Leahy.
    Senator Leahy. I do just want to mention the terrible 
tragedy that happened yesterday. I can only imagine how those 
families feel in the Army.
    Senator Cochran. Thank you.
    The distinguished Senator from Kansas.
    Senator Moran. I extend my condolences to the Army for the 
loss of life. I reserve the rest of my remarks.
    Senator Cochran. Thank you.
    The Senator from Missouri, opening comments?
    Senator Blunt. Well, thank you, Chairman, for holding this 
hearing. I want to join my colleagues in expressing our 
commitment to the families and all those who serve and the 
unfortunate loss of people in training. I'm certainly pleased 
to have Secretary McHugh and General Odierno here today with 
us.
    Senator Cochran. Thank you, Senator.
    Secretary, you may proceed.

               SUMMARY STATEMENT OF HON. JOHN M. MC HUGH

    Secretary McHugh. Before I begin, Mr. Chairman, if I may, 
with your indulgence, I want to thank you and all the committee 
members for your very gracious comments about the training 
tragedy overnight and the specter of loss to families. We tend 
to, I think, understandably think of danger in military service 
in those times when our military men and women are forward 
deployed and in kinetic environments. As I said, that's 
natural. But what happened last night I think underscores the 
very real circumstances that men and women who put that uniform 
on face each and every day, and we are enormously in their 
debt.
    In this case, as you and your members have noted, our 
thoughts and prayers are with the families. As an Army family, 
we will stand together. So, thank you for your comments.
    It is amazing how much can change in a year. Over the last 
12 months, we've seen the geopolitical landscape morph really 
at an astonishing pace, from renewed aggression by Russia and 
increased threats from North Korea, to gains by radical 
terrorists in Iraq, Syria, and Yemen, not to mention the fight 
against Ebola. The demand for the Army to tackle contingencies 
around the world has grown at an alarming rate.
    Far from being foreseeable, our requirements have been more 
unexpected, our enemies more unpredictable, and our ability to 
handle multiple simultaneous operations more uncertain. And 
yet, with such volatility and instability around the world, 
America's Army is faced yet again with an enemy here at home, 
the return of sequestration, unprepared units, unmaintained 
equipment, untrained soldiers.
    Ladies and gentlemen, our Army, your Army, faces a dark and 
dangerous future unless this Congress acts now to end these 
ill-conceived and inflexible budget cuts. Moreover--and I want 
to be clear here--every installation, every component, and 
nearly every program will feel the brunt of these cuts.
    Under sequestration, by 2019, we will reduce our end 
strength to unconscionable levels, likely losing another six 
BCTs (brigade combat teams) and potentially a division 
headquarters, not to mention the impacts to associated 
enablers, contracts, facilities and civilian personnel. It is 
our shared responsibility to jealously preserve the gains in 
readiness, modernization and training that we've achieved 
through your critically important support.
    And in that regard, let me share with you some of the 
accomplishments of America's Army this past year.
    As Russian-backed forces rolled into Ukraine and axed 
Crimea and threatened regional stability, our soldiers rapidly 
deployed to Eastern Europe in a demonstration of U.S. 
commitment and resolve. From Latvia and Lithuania to Poland and 
Estonia, soldiers from the 173rd Airborne and the 1st Cavalry 
showed the world that America would stand with our NATO (North 
Atlantic Treaty Organization) allies and respond to unbridled 
aggression.
    In West Africa, as thousands suffered from the scourge of 
Ebola, your Army acted. Elements of several units, led by the 
101st Airborne, provided command and control, equipment and 
expertise to support efforts to stop this deadly and 
destabilizing disease.
    In response to rapid gains by ISIL (Islamic State of Iraq 
and the Levant), your soldiers quickly returned to Iraq to 
advise and assist security forces in turning the tide on this 
barbaric group of radical terrorists.
    In the Pacific, thousands of soldiers and civilians 
supported operations to strengthen our partnerships and 
increase our substantial presence.
    Today, the headquarters of nine Active Army and two Guard 
divisions are committed to combatant commands; and some, as you 
noted, Mr. Chairman, 144,000 soldiers are deployed, forward-
stationed or committed, including, as you noted, 19,000 
mobilized Reservists.
    Moreover, we've done all this while continuing to transform 
our formations, making them leaner, more agile, and far more 
lethal.
    As all of you know so well, such extraordinary success 
comes at a price, for in the end, the young lieutenant leading 
his or her platoon on the battlefield, the sergeants training 
and mentoring their soldiers, the invaluable civilian workforce 
laboring countless hours to support them, and the young family 
waiting patiently at home are all human. The stress of war, 
multiple deployments and unpredictable requirements doesn't 
change in the face of indiscriminate funding cuts.
    Through it all, we have and we will remain committed to 
supporting the needs of our warriors, from programs to increase 
resilience and improve behavioral health to the prevention of 
sexual assault and the protection of victims from retaliation. 
We'll keep faith with our soldiers.
    Rest assured, the return of sequestration will directly 
impact critical installation and family programs Army-wide.
    Members, simply put, we need the President's budget. Our 
$126.5 billion request is some $6 billion over the potential 
sequester level, and it's specifically designed to preserve our 
modest gains in readiness over the last year and take care of 
your soldiers. If approved, we will invest $3.4 billion above 
the fiscal year 2015 funding levels in training, sustainment 
and installation programs that directly support combat 
readiness, and $2.6 billion in research, development and 
acquisition to equip soldiers, to protect key parts of the 
industrial base and support new innovations.
    Moreover, this request seeks vital reforms to compensation 
and force structure that will ensure the funding needed to 
support near-term readiness and help place the Army on a 
predictable path to balance. From modest changes to pay and 
allowances to our aviation restructuring initiative, our 
reforms are both necessary and prudent to sustain the readiness 
of our forces and move the Army toward eventual balance.
    I cannot emphasize enough how these critical reforms and 
funds are necessary to ensuring that your Army has sufficiently 
trained and ready soldiers to protect our Nation.
    Ladies and gentlemen of the committee, this is an historic 
moment. We need to stop talking and start acting. We need 
wisdom, not words. We need results, not rhetoric. And as I said 
last year, we need predictability, not politics.

                           PREPARED STATEMENT

    As we face extreme instability around the world, we must 
have certainty here at home. Your soldiers--and I know you 
agree--deserve no less. We must have an end to sequestration 
this year, and we must have this budget.
    In closing, on behalf of the nearly 1.3 million men and 
women of America's Army, Active Guard, Reserve and civilian, 
thank you, each of you, for your continued oversight, 
partnership, leadership, and support.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The statement follows:]
             Prepared Statement of Hon. John M. McHugh and
                       General Raymond T. Odierno
                           executive summary
    Now more than ever, in today's uncertain and dynamic security 
environment, we must be prepared to meet multiple, wide-ranging 
requirements across the globe simultaneously while retaining the 
ability to react to the unknown. The velocity of instability around the 
world has increased, and the Army is now operating on multiple 
continents simultaneously in ways unforeseen a year ago. In short, our 
Army is busy. We are fully engaged and our operational tempo will not 
subside for the foreseeable future. In the wake of Russia's 
intervention in Ukraine, the Army deployed forces to Eastern Europe in 
a demonstration of U.S. commitment and resolve. In West Africa, the 
Army provided support for the U.S. Agency for International 
Development's humanitarian mission to stem the tide of the Ebola virus. 
In response to regional instability in the Middle East, Army forces 
have recommitted to advise and assist Iraqi government forces and the 
Kurdish Peshmerga. Across the Pacific, thousands of Army forces are 
supporting operations to strengthen our partnerships and alliances as 
part of Pacific Pathways in places like Thailand, the Philippines, 
Malaysia, Australia, Indonesia and the Republic of Korea. We remain 
committed to protecting the enduring Armistice on the Korean Peninsula. 
Our Soldiers remain on point in Afghanistan, even as we draw down our 
forces there. Currently, nine of ten Regular Army and two Army National 
Guard division headquarters are committed in support of Combatant 
Commands, with more than 143,000 Soldiers deployed, forward stationed, 
or committed and 19,000 Reserve Soldiers mobilized.
    Last year, we testified that the minimum force necessary to execute 
the defense strategy was a force floor of 450,000 in the Regular Army, 
335,000 in the Army National Guard and 195,000 in the Army Reserve--a 
total of 980,000 Soldiers. That assessment has not changed and is based 
on certain planning assumptions regarding the duration, number and size 
of future missions. When determining these assessed force levels, we 
also made clear that risks at this level would grow if our underlying 
assumptions proved inaccurate. Although we still believe we can meet 
the primary missions of the Defense Strategic Guidance (DSG) today, our 
ability to do so has become tenuous. There is a growing divide between 
the Budget Control Act's (BCA) arbitrary funding mechanism--that has 
seen the Army budget drop in nominal terms every year since enacted in 
2011--and the emerging geopolitical realities confronting us now across 
Europe, the Middle East, Africa and the Pacific, along with the growing 
threats to our homeland. Risk thereby increases to our force, our 
national security and our Nation. As the Army approaches a Total Army 
end strength of 980,000 Soldiers by fiscal year 2018, we must 
constantly assess the operational tempo and its impacts on the health 
and viability of the force. We must ensure we have both the capability 
to respond to unforeseen demands and the capacity to sustain high 
levels of readiness.
    So, as the Army looks to the future and continues to downsize, we 
have developed a new Army Operating Concept, ``Win in a Complex 
World.'' The foundation of the Army Operating Concept is our ability to 
conduct joint combined arms maneuver. The Army Operating Concept 
endeavors to build a force operating alongside multiple partners able 
to create multiple dilemmas for our adversaries, while giving 
commanders multiple options and synchronizing and integrating effects 
from multiple domains onto and from land. Recognizing the changing 
world around us, the Army Operating Concept envisions an Army that is 
expeditionary, tailorable, scalable and prepared to meet the challenges 
of the global environment. The Army Operating Concept sets the 
foundation upon which our leaders can focus our efforts and resources 
to maintain strategic and operational flexibility to deter and operate 
in multiple regions simultaneously--in all phases of military 
operations--to prevent conflict, shape the security environment and win 
wars now and in the future.
    Nevertheless, fiscal challenges brought on by the BCA strain our 
ability to bring into balance readiness, modernization and end 
strength. The BCA puts at significant risk the Army's ability to meet 
the Army's obligations within the DSG and fulfill its national security 
requirements. Even as demand for Army forces is growing, budget cuts 
are forcing us to reduce end strength to dangerously low levels. We 
face an ``ends'' and ``means'' mismatch between requirements and 
resources available.
    The BCA and sequestration have already had a detrimental impact on 
readiness and modernization. Budget constraints have significantly 
impacted every Army modernization program, forcing the delay of 
critical investments in next generation capabilities, to include 
training support and power projection capabilities across Army 
installations. Although the Bipartisan Budget Agreement (BBA) provided 
fiscal relief to the Army in fiscal year 2014, in fiscal year 2015 the 
Army budget decreased by $6 billion. We now face a fiscal year 2016 
defense spending cap insufficient for operating in an unstable global 
security environment that presents the Army with a number of urgent, 
complex and challenging missions. The fiscal year 2016 spending cap--
set almost 4 years ago--has not kept pace with the geopolitical reality 
unfolding around the world.
    We know we must strike a balance between resources and capacity. 
The Army fully supports fiscal responsibility and has worked diligently 
and consistently to be a good steward of taxpayer dollars. In that 
regard, we have made many tough choices. There are critical cost-saving 
measures that allow the Army to further reallocate scarce resources to 
ensure Army forces remain as trained and ready as possible. These 
include compensation reform, sustainable energy and resource 
initiatives, a new round of Base Realignment and Closure (BRAC) and the 
Aviation Restructure Initiative (ARI). We ask Congress to support these 
initiatives because without the flexibility to manage our budgets to 
achieve the greatest capability possible, we will be forced to make 
reductions to manpower, modernization and training that are larger, 
less efficient and longer-standing in the damage they inflict on the 
Army.
    We also need consistent and predictable funding. The use of 
Continuing Resolutions wreaks havoc with Army readiness, modernization 
and end strength. It makes long term planning difficult, especially 
with the uncertainties that exist if we return to sequestration in 
fiscal year 2016. As a result, we are forced to train intermittently 
and the materiel and equipment we buy costs more and takes longer to 
acquire. This ongoing budgetary unpredictability is neither militarily 
nor fiscally responsible. To maintain an appropriate level of 
readiness, the Army must receive consistent funding for training each 
year. Unless Congress eases the BCA defense caps, the Army will 
experience degraded readiness coupled with increased risk, making it 
more difficult for us to provide for the common defense. Each passing 
year, the BCA increases risk for sending insufficiently trained and 
equipped Soldiers into harm's way, and that is not a risk our Nation 
should accept.
    Lastly, our profession is built on trust. In holding true to that 
trust, our Nation expects our competence, commitment and character to 
reflect our Army values. To that end, we are working to reduce and, in 
the future, eliminate sexual assault and sexual harassment, which 
destroys good order and discipline and is contrary to our core values. 
We are also increasing opportunities for women and opening positions 
based on standards free on any gender bias. Finally, our programs like 
Soldier for Life and the Ready and Resilient Campaign are demonstrating 
our sacred commitment to care for our Soldiers, our Civilians and their 
Families who selflessly sacrifice so much. These are actions we have 
taken because it is the right thing to do.
                              introduction
    Last year, we testified before Congress that the minimum end 
strength the Army requires to execute the 2012 Defense Strategic 
Guidance is 980,000 Soldiers--450,000 in the Regular Army, 335,000 in 
the Army National Guard and 195,000 in the Army Reserve. We described 
how the Army moved to implement the 2014 Quadrennial Defense Review 
(QDR) guidance by shaping the force while supporting the fight in 
Afghanistan and deploying forces to address several unexpected 
challenges around the world. In contrast to the projections outlined in 
the defense strategy, the regional security and stability in Europe, 
Africa, the Middle East and the Pacific have deteriorated over the past 
12-24 months in ways we did not anticipate. These growing and emerging 
threats to the global security environment compel us to rethink our 
assessment of the drawdown. For the next 3 years, as we restructure to 
operate as a smaller force, the Army faces readiness challenges and 
extensive modernization delays. Under the President's Budget, we will 
begin to regain balance between end strength, modernization and 
readiness beyond fiscal year 2017. Although we still believe we can 
meet the fundamental requirements of the DSG at 980,000 Regular, Guard 
and Reserve Soldiers, it is a tenuous balance. The risk to our national 
security and our force itself continues to increase with rising 
instability and uncertainty across Europe, the Middle East, Africa and 
the Pacific, along with a growing threat to the homeland. Any force 
reductions below 980,000 Soldiers will render our Army unable to meet 
all elements of the DSG, and we will not be able to meet the multiple 
challenges to U.S. national interests without incurring an imprudent 
level of risk to our Nation's security.
               increasing velocity of global instability
    The accelerating insecurity and instability across Europe, the 
Middle East, Africa and the Pacific, coupled with the continued threat 
to the homeland and our ongoing operations in Afghanistan, remain a 
significant concern to the Army. The Islamic State in Iraq and the 
Levant's (ISIL) unforeseen expansion and the rapid disintegration of 
order in Iraq and Syria have dramatically escalated conflict in the 
region. Order within Yemen is splintering; the al Qaeda insurgency and 
Houthi expansion continues there; and the country is quickly 
approaching a civil war. In North and West Africa, anarchy, extremism 
and terrorism continue to threaten the interests of the United States, 
as well as our allies and partners. In Europe, Russia's intervention in 
Ukraine challenges the resolve of the European Union. Across the Asia-
Pacific, China's lack of transparency regarding its military 
modernization efforts raise concerns with the United States and our 
allies, and the continuing development of North Korea's nuclear and 
missile programs contributes to instability. The rate of humanitarian 
and disaster relief missions, such as the recent threat of Ebola, 
heightens the level of uncertainty we face around the world, along with 
constantly evolving threats to the homeland. With the velocity of 
instability increasing around the world, continuing unrest in the 
Middle East, and the threat of terrorism growing rather than receding--
witness the recent tragedies in Paris and Nigeria--now is not the time 
to drastically reduce capability and capacity.
    The Army, as part of the Joint Force, operates globally in 
environments characterized by growing urbanization, the potential for 
the proliferation of weapons of mass destruction, malicious cyber and 
information operations, humanitarian crises and the deleterious effects 
of climate change. Sectarian violence exploited by state and non-state 
actors, irredentism and terrorist activities are driving conflict 
around the world. The corrosive effects of drug and human trafficking 
by transnational criminal organizations undermine state authority and 
trigger a destabilizing level of violence in places such as Central and 
South America. These combined factors lead to vulnerable populations 
and threats that appear across multiple domains, the sum of which will 
continue to challenge global security and cooperation in ways that are 
difficult to anticipate.
    No single strategic challenger is likely to gain overall 
superiority over U.S. military capabilities in the near future. Even 
so, competitors of the U.S. seek to negate our strengths, exploit our 
vulnerabilities and gain temporary or local superiority in one or more 
capability areas. It is unlikely any of these challengers will choose 
traditional force-on-force confrontation with American forces. Instead, 
potential adversaries are likely to pursue and emphasize indirect and 
asymmetric techniques. Their strategies may include employing anti-
access/area denial capabilities, using surrogates, subverting our 
allies, using cyber and information operations, staying under our 
threshold for combat or simply prolonging conflict to test our resolve.
    One of the most important global security bulwarks is the U.S. 
network of security alliances and partners. This valuable asset to U.S. 
national security and global stability is entering a period of 
transition. Traditional allies in Europe face significant economic and 
demographic burdens that exert downward pressure on defense budgets. As 
a consequence, allies and partners who have joined us in past coalition 
operations may be less apt to do so in the future. Building the 
security capacity necessary for regional stability requires sustained 
and focused engagement. Active engagement with allies, friends and 
partners is resource-intensive, but will be essential to sustaining 
global multilateral security. This combination of threats and 
conditions creates an increasingly dangerous and unpredictable 
operational environment and underscores the need for a U.S. Army that 
is agile, responsive and regionally engaged.
      demand for a globally responsive and regionally engaged army
    It is imperative we maintain strategic and operational flexibility 
to deter and operate in multiple regions simultaneously--in all phases 
of military operations--to prevent conflicts, shape the security 
environment and, when necessary, win in support of U.S. policy 
objectives. The Army is and will continue to be the backbone of the 
Joint Force, providing fundamental capabilities to each of the 
Combatant Commanders such as command and control, logistics, 
intelligence and communications support to set the theater, as well as 
providing ground combat forces, Special Operations Forces and Joint 
Task Force headquarters. Demand for Army capabilities and presence 
continues to increase across Combatant Commands in response to emerging 
contingencies. The Army has sent rotational forces to Europe, Kuwait 
and the Republic of Korea, and established JTF Headquarters in Iraq, 
Afghanistan, Honduras, the Horn of Africa and Jordan. In multiple Areas 
of Responsibility, the Army is meeting simultaneous requirements based 
on our ten primary DSG missions. As part of the Joint Force, we support 
Combatant Commanders and work with interagency partners and our allies 
to enhance security cooperation, provide foreign humanitarian 
assistance, build partner capacity and participate in multi-lateral 
exercises.
    We are making the Army more agile, adaptable and expeditionary than 
ever before. For example, there is an infantry battalion forward-
deployed in Djibouti, and units in Kuwait positioned to quickly respond 
anywhere in the Middle East. Even as we reduce our presence in 
Afghanistan, the global demand for Brigade Combat Teams (BCTs), the 
Army's basic warfighting units, is projected to decrease by only one 
before 2016. Combatant Commanders' demand for Patriot missile 
battalions and Terminal High Altitude Air Defense (THAAD) batteries 
exceeds our capacity, significantly limiting options in emerging 
crises, and exceeding the Army's ability to meet Department of Defense 
(DOD) deployment-to-dwell rotation goals for these units. In fiscal 
year 2016, we expect Combatant Command and Interagency demand for Army 
forces will increase further in areas such as logistics, intelligence, 
cyber, space, air and missile defense, signal, aviation, Special 
Operations Forces and mission command.
    Demand for Army division headquarters is already high and we expect 
this trend to continue. Combatant Commanders rely upon the proven 
mission-command capabilities of our division headquarters and the 
essential shaping effects of Army enabler units including Intelligence, 
Surveillance and Reconnaissance (ISR) platforms. In the last year, we 
deployed the 1st Infantry Division headquarters to U.S. Central Command 
in support of the multinational effort to defeat ISIL, and we delivered 
the 101st Airborne Division (Air Assault) headquarters to synchronize 
national and international efforts to counter the Ebola virus in West 
Africa.
    Additionally, 1st Armored Division Headquarters conducts operations 
in Jordan; 2nd Infantry Division protects the Republic of Korea; 3rd 
Infantry Division advises and assists in Afghanistan; and 4th Infantry 
Division assures our allies in Europe. All told, elements of nine out 
of ten Regular Army division headquarters and two Army National Guard 
division headquarters, including the Global Response Force, are 
currently deployed or prepared to deploy around the globe supporting 
commitments to the Pacific Theater and the Republic of Korea; 
Afghanistan, Jordan, Iraq and Kuwait; Africa; Eastern Europe; and the 
homeland.
    Consequently, we must size and shape the Army for the world in 
which we live. First, through the Army, and the presence it provides, 
we will fulfill our collective security obligations, defend our 
citizens and protect our national interests when the Nation calls upon 
us. Second, a robust Army provides Combatant Commanders with essential 
capacity to more fully engage allies and shape the security environment 
across their areas of responsibility. Finally, appropriate Army force 
levels reduce the risk of being ``too wrong'' in our assumptions about 
the future.
    Unlike previous eras and conflicts, today's fast-paced world simply 
does not allow us the time to regenerate capabilities after a crisis 
erupts. Faced with a national crisis, we will fight with the Army we 
have, but there will be consequences. Generating the Army is a complex 
endeavor that requires policy decisions, dollars, Soldiers, 
infrastructure and, most importantly, time. It takes approximately 30 
months to generate a fully manned and trained Regular Army BCT once the 
Army decides to expand the force. Senior command and control 
headquarters, such as divisions and corps, take even longer to generate 
and train to be effective given the skill sets and training required of 
Soldiers manning these formations. Overall, we must acknowledge that 
today's highly-technological, All-Volunteer Force is much different 
than the industrial age armies of the past.
    Finally, with flexibility to balance structure, modernization and 
readiness within budgetary authority, we can best mitigate the risk 
imposed by budget reductions and end strength reductions to adapt to a 
rapidly-changing operating environment. Achieving this balance will 
enhance our ability to redesign the force for the future, experiment 
with new, innovative operational concepts and rebuild critical 
collective skills, all while taking care of our Soldiers and their 
Families in a manner consistent with their service and sacrifice.
             army operating concept: win in a complex world
    Even as the Army confronts the many challenges wrought by 
sequestration, we continue to seek efficiencies while adapting to the 
complexities of an evolving and unstable security environment. It is 
imperative that our Army adapts to the future joint operating 
environment, one that consists of diverse enemies that employ 
traditional, irregular and hybrid strategies which threaten U.S. 
security and vital interests. In October of last year, we introduced 
the new Army Operating Concept, ``Win in a Complex World.'' The 
foundation of this concept is our ability to conduct joint combined 
arms maneuver. It endeavors to build a force operating alongside 
multiple partners able to create multiple dilemmas for our adversaries, 
while giving commanders multiple options and synchronizing and 
integrating effects from multiple domains onto and from land. 
Recognizing the changing world around us, the Army Operating Concept 
envisions an Army that is expeditionary, tailorable, scalable and 
prepared to meet the challenges of the global environment. The Army 
Operating Concept reinforces our five strategic priorities:
  1. Develop adaptive Army leaders for a complex world;
  2. Build a globally responsive and regionally engaged Army;
  3. Provide a ready and modern Army;
  4. Strengthen our commitment to our Army profession; and
  5. Sustain the premier All-Volunteer Army.
    The Army Operating Concept also describes the Army's contribution 
to globally integrated operations. Army forces provide foundational 
capabilities required by the Combat Commanders to synchronize and 
integrate effects across land and from land into the air, maritime, 
space and cyberspace domains. The Army Operating Concept ensures that 
we are prepared to lead Joint, interorganizational and multinational 
teams in complex security environments.
    Through a dedicated ``Campaign of Learning'' under Force 2025 
Maneuvers, we will assess new capabilities, design and doctrine. This 
enables future innovation of our expeditionary capabilities and 
enhanced agility. We are assessing key capabilities such as manned-
unmanned teaming, operational energy and expeditionary command posts. 
We are focusing our innovation efforts in this Campaign of Learning to 
ensure we address the 20 Army Warfighting Challenges. The Army 
Warfighting Challenges are the enduring first-order problems, and 
solving them will improve combat effectiveness. These challenges range 
from shaping the Security Environment, to countering Weapons of Mass 
Destruction, to conducting Space and Cyber Operations, to Integrating 
and Delivering Fires to Exercising Mission Command. The Army Operating 
Concept represents a long-term, cost-effective way to enhance 
readiness, improve interoperability and modernize the force. It is also 
a cost-effective way to assess and demonstrate Joint and multinational 
interoperability and readiness. We must continue to learn and apply 
what we learn as we rethink how the Army operates to ``Win in a Complex 
World.''
                       president's budget request
    This year, the President's Budget requests $126.5 billion for the 
Army base budget. This budget request is about $5.4 billion above what 
the Congress enacted in fiscal year 2015. The President's Budget 
requests $6 billion more than an expected sequester-level budget. This 
additional $6 billion will be invested in readiness and procurement:
  --$3.4 billion for training, sustainment and installation programs 
        directly supporting combat readiness; and,
  --$2.6 billion for Research and Development, and Acquisition accounts 
        in order to equip Soldiers across the Regular, Guard and 
        Reserve forces, sustain critical parts of the industrial base 
        and invest in innovation supporting the Army Operating Concept.
    These increases are critical to achieving sustainable readiness 
needed to meet the demands of today's complex environment, while 
preserving manpower needed to prevent hollowness in our formations.
    As Congress reviews our budget for this year, we ask that you 
compare our funding levels to what we asked for and executed in fiscal 
year 2013 and fiscal year 2014, rather than to the near- sequestration 
level funding enacted in fiscal year 2015. With the support of 
Congress, the Army executed $125 billion in fiscal year 2014 to begin 
rebuilding readiness lost in fiscal year 2013 due to sequestration. The 
fiscal year 2015-enacted level of $121 billion is challenging 
commanders across the Army to sustain readiness while reorganizing 
formations to operate as smaller forces. In fiscal year 2015, we are 
significantly reducing key installation and family services, individual 
training events and modernization to such an extent as to jeopardize 
future readiness and quality of life. The Army's budget request for 
fiscal year 2016 continues to focus on building near term readiness 
through predictability and continuity in funding levels.
    One critical assumption in the President's Budget request is that 
Congress will enact necessary compensation and force restructuring. We 
fully support modest reforms to pay raises, healthcare and other 
benefits that have been proposed. Without these reforms, savings 
assumptions we have included in our planning will not be realized, 
placing increasing pressure on further end strength reductions and 
reducing funding needed to sustain readiness. The President is 
proposing over $25 billion in compensation reforms including slowing 
the growth of Basic Allowance for Housing, changing TRICARE, reducing 
the commissary subsidy and slowing the growth in basic pay. Should 
Congress fail to enact these reforms, the effects of budget shortfalls 
in programs and services throughout the force will wreak havoc on our 
formations. We will have to make decisions at every Army installation 
that will impact the quality of life, morale and readiness of our 
Soldiers. Without appropriate compensation reform, the Army would need 
an additional $10.4 billion across the program years to meet our basic 
requirements. To the extent Congress does not approve the extra topline 
or the reforms, we would have to find another $2-3 billion per year in 
reductions, thereby further diminishing the size and capability of our 
fighting force. None of these reforms are easy, but all are necessary.
    One of our most important reforms is the Aviation Restructuring 
Initiative (ARI), which we continued in fiscal year 2015. Our current 
aviation structure is unaffordable, so the Army's plan avoids $12 
billion in costs and saves an additional $1 billion annually if we 
fully implement ARI. We simply cannot afford to maintain our current 
aviation structure and sustain modernization while providing trained 
and ready aviation units across all three components. Our comprehensive 
approach through ARI will ultimately allow us to eliminate obsolete 
airframes, sustain a modernized fleet, and reduce sustainment costs.
    Through ARI, we will eliminate nearly 700 aircraft and three Combat 
Aviation Brigades from the Active Component, while only reducing 111 
airframes from the Reserve Component. ARI eliminates and reorganizes 
structure, while increasing capabilities in order to minimize risk to 
meeting operational requirements within the capacity of remaining 
aviation units across all components. If the Army does not execute ARI, 
we will incur additional costs associated with buying additional 
aircraft and structure at the expense of modernizing current and future 
aviation systems in the total force.
    Although we disagree with the need for a Commission on the Future 
of the Army, as directed in the National Defense Authorization Act, we 
will fully support the Commission as it examines and assesses the force 
structure and force mix decisions the Army has proposed for Active and 
Reserve Components.
                        impacts of sequestration
    In support of the President's fiscal year 2015 budget request, 
which reflected the outcomes of the Secretary of Defense's 2013 
Strategic Choices and Management Review (SCMR) and the 2014 QDR, we 
emphasized that the updated defense strategy, combined with reduced 
Army force levels, had increased the risk level to ``significant,'' and 
would become manageable only after the Army achieved balance between 
end strength, readiness and modernization. At force levels driven by 
affordability under full sequestration, the Army cannot fully implement 
its role in the defense strategy. Sequestration would require the Army 
to further reduce our Total Army end strength to at least 920,000, or 
60,000 below the 980,000 currently reflected in the President's Budget 
request.
    Global demands for the Army are increasing, but end strength, 
readiness and modernization cuts greatly reduce our ability to respond 
at a time when the instability is accelerating worldwide. As a result, 
we are faced with an ends and means disparity between what is required 
of us and what we are resourced to accomplish. This has real impacts 
for our national security. Long-term fiscal predictability will allow 
the Army to balance force structure, end strength, modernization and 
readiness, while providing the Nation a trained and ready force 
prepared to win in a complex world. Without this investment, we will 
see immediate degradations in recruiting, manning, training, equipping 
and sustaining Army readiness during a time of great uncertainty and 
growing worldwide instability.
    Although we are already expecting a decline in the overall 
readiness of our forces in fiscal year 2015, it pales in comparison to 
the decrease of readiness under expected sequester levels in fiscal 
year 2016. Sequestration measures will not only dissipate the modest 
gains we achieved, but will leave the Army in a hollow and precarious 
state. The impact of sequestration on the Army's fiscal year 2016 
funding levels would cause an abrupt and immediate degradation of 
training, readiness and modernization. Relief from full sequester-
levels in fiscal year 2014 provided some predictability and allowed for 
partial recovery from fiscal year 2013's low readiness levels. However, 
the Army demonstrated a need for funding above the enacted $121 billion 
topline in fiscal year 2015, as savings from drawing down end strength 
are manifesting as rapidly as possible. Current funding levels afforded 
just over a third of our BCTs the training necessary to conduct 
decisive action. This year, we face significant challenges to sustain 
even that level of readiness in our dynamic operating environment.
    If sequestration remains unchanged, the consequences for our Army 
will be dramatic. Another round of cuts will render our force unable to 
meet all elements of the DSG without creating additional risk to our 
soldiers. Reductions in end strength brought on by sequestration will 
limit our ability to provide strategic options to the President and 
pose unacceptable risk by placing into question our capacity to execute 
even one prolonged, multi-phased major contingency operation. We will 
experience significant degradations in readiness and modernization, 
which will extend adverse impacts well into the next decade, 
exacerbating the time the Army requires to regain full readiness. The 
Nation cannot afford the impacts of sequestration. Our national 
security is at stake.
                   achieving end strength reductions
    By the end of fiscal year 2015, we will have reduced the Regular 
Army by over 80,000 Soldiers, 8,000 in the Army National Guard and 
7,000 in the Army Reserve. Commensurate with these reductions, the Army 
will achieve an end strength by the end of fiscal year 2015 of 490,000 
Regular Army, 350,000 Army National Guard and 202,000 Army Reserve. 
Consistent with available budget resources, the 2014 Quadrennial 
Defense Review and the DSG, the Army will continue to reduce its end 
strength in fiscal year 2016 as follows: the Regular Army will shrink 
by 15,000 (3.1 percent) to 475,000; the Army National Guard will shrink 
by 8,000 (2.3 percent) to 342,000; and the Army Reserve will shrink by 
4,000 (2 percent) to 198,000.
    To achieve required end strength reductions, we will need to 
separate Soldiers who have served their nation honorably. Cumulatively, 
we will have reduced our Regular Army end strength from a wartime high 
of 570,000 to 475,000 by the end of 2016 (17 percent reduction), while 
our Army National Guard will have reduced its end strength from a 
wartime high of 358,000 to 342,000 (4.5 percent reduction) and the Army 
Reserve will have reduced its end strength from a wartime high of 
205,000 to 198,000 (3.4 percent reduction). These reductions put the 
Army on a glide path to meet the targeted force of 980,000 in fiscal 
year 2018. For all components of the Army, this end strength is smaller 
than the pre-2001 force structure.
    Although we are making reductions in the overall end strength of 
the Army National Guard and U.S. Army Reserve, we have continued to 
invest in higher Full Time Support levels, including Active Guard and 
Reserve, Military Technicians and Civilians. This budget supports 
82,720 Full Time Support positions in fiscal year 2016 as compared to 
68,000 in fiscal year 2001. This level of Full Time Support constitutes 
a 20 percent increase since 2001.
    In the Army Civilian workforce, we have reduced Department of the 
Army Civilians from the wartime high levels of 285,000 and will 
continue to reduce appropriately over the coming years. While 
necessary, these reductions in the Civilian workforce have and will 
continue to adversely impact capabilities such as medical treatment, 
training, depot and range maintenance, installation emergency services, 
physical security and select intelligence functions. In all of the 
reductions across the Total Army, we are taking prudent measures to 
ensure we balance requirements and capacity.
    To achieve planned end strength reductions, the Army expects to use 
various types of separation authorities across all elements of the 
Total Force. The fiscal year 2012 and fiscal year 2013 National Defense 
Authorization Acts provided several authorities to help the Army shape 
the force over the drawdown period, along with the flexibility to apply 
them to meet specific grade and skill requirements. Under normal loss 
rates, we would not be able to reach our end strength goal during the 
fiscal year 2015-fiscal year 2017 period. There is no single force-
shaping method among the choices of accession, retention and separation 
that allows the Army to achieve its end strength goals; inevitably, we 
will have to involuntarily separate quality Soldiers. Closely managing 
accession levels, selectively promoting and following more stringent 
retention standards will help shape the force over time.
    Although the Army expects to lose combat-seasoned Soldiers and 
leaders, throughout this process, our focus will be on retaining 
individuals with the greatest potential for future service in the right 
grades and skills. As Soldiers depart the Regular Army, we are 
committed to assisting them and their Families as they reintegrate into 
civilian communities. Leaders across the Army are engaged in ``Soldier 
for Life,'' a continuum of service concept that facilitates transition 
to civilian employment, educational opportunities and service in the 
Reserve Components.
                         ensuring a ready army
    During this period of drawdown, the Army is reorganizing, 
realigning and restructuring forces. The Brigade Combat Team 
reorganization enhances brigade combat power by adding a third maneuver 
battalion to 38 BCTs by the end of fiscal year 2015 and reducing the 
total number of BCTs to 60 (32 Regular Army and 28 Army National Guard) 
in the Total Force.
    Since May 2014, we have been developing a sustainable force 
generation and readiness model to account for the new, volatile, 
strategic operating environment; the need to remain regionally-engaged 
and budgetary and force sizing realities. The Sustainable Readiness 
Model will provide force generation policies and processes that 
optimize the readiness of the force and balance the Army's steady state 
missions, contingency response capability and available resources. We 
cannot predict the specific events that will cause the next demand for 
Army forces, but history suggests it will come sooner than we expect. 
All components of the Army must remain sized and postured as essential 
members of the Joint Force to protect the Nation and its interests.
    Even with funding relief from sequestration in fiscal year 2014, in 
fiscal year 2015 we returned to near- sequestration level funding, 
resulting in just a third of our BCTs trained in their core mission 
capabilities in decisive action. The President's Budget request 
increases readiness funding above fiscal year 2015 levels, which is 
critical to sustaining and improving readiness of the force. In fiscal 
year 2014, the Army completed 19 rotations at the Combat Training 
Centers (CTCs), including six rotations for deploying BCTs and 13 
decisive action training rotations (12 Regular Army and one Army 
National Guard). Fiscal year 2015 funding levels challenge Army 
commanders to sustain continuity in readiness across the force; 
however, we remain committed to CTC rotations to build leader and unit 
readiness. fiscal year 2015 plans fund 19 CTC rotations, with 15 
Regular Army and two Army National Guard decisive action rotations, 
with fiscal year 2016 continuing this level of CTC exercises. We are 
improving Training Support Systems to enable more realistic home 
station training, increase collective training proficiency and enhance 
operational readiness for contingencies across the globe; however, 
funding constraints in fiscal year 2015 impede our ability to maximize 
home station training goals. The President's Budget request for fiscal 
year 2016 allows the Army to increase training readiness to battalion-
level across the Active Component force and to platoon-level in the 
Reserves. Lower funding levels will not allow us to achieve this 
balanced readiness.
    Although the Army attempts to mitigate the impacts on training 
readiness, we must continue to implement the Contingency Force model of 
fiscal year 2015 in order to maintain readiness for the 24 of 60 BCTs 
that will receive sufficient funding to conduct training at CTCs and 
home station. Funding shortages will limit the remaining 36 BCTs to 
minimum Individual/Crew/Squad resourcing levels through sufficient 
Training Support Systems (TSS). In short, sequestration forces the Army 
to ration readiness. Regardless of funding levels, we are committed to 
keeping CTCs a priority.
    Our aim is to provide tough, realistic multi-echelon home station 
training using a mix of live, virtual and constructive methods that 
efficiently and effectively build Soldier, leader and unit competency 
over time, contributing to the effectiveness of the current and future 
forces. Training will integrate the unique capabilities of the Light, 
Medium and Heavy forces, as well as the capabilities of Conventional 
and Special Operations Forces. Furthermore, we are optimizing the use 
of existing training capacity and leveraging other opportunities such 
as CTCs, exercises and operational deployments to maximize the training 
benefits of fixed overhead and operational costs. Training centers such 
as Joint Multinational Readiness Center will increase our 
interoperability with Allies. Our goal is to increase readiness from 33 
percent to 70 percent of our Regular Army BCTs, allowing the Army to 
balance Combatant Command force requirements while maintaining surge 
capability--but we need consistent resources to get there. We are also 
increasing funding for our individual and institutional training. 
Funding increases focus on leader development, entry-level training and 
flight training. This allows the Army to develop its future leaders, 
prepare its Soldiers to operate in today's dynamic combat environment 
and provide trained and ready Soldiers to meet Combatant Commanders' 
requirements.
    The Army continues to make progress in integrating the unique 
capabilities of each of its components to support the needs of the 
Combatant Commanders. As part of the Army's Total Force Policy, the 
U.S. Army Forces Command is leading the way by partnering every Guard 
and Reserve division and brigade with a Regular Army peer unit. The 
Army is also piloting a program to assign Guard and Reserve personnel 
directly to each Regular Army corps and division headquarters. For 
example, the Reserve Component rapidly provided support capabilities in 
support of Operation United Assistance in Liberia to augment and 
replace elements of the initial Active Component response.
    As we transition from combat operations in Afghanistan, our Army is 
focused on our ability to rapidly deploy forces around the world in 
order to meet the needs of our Combatant Commanders. To do this, we 
enhanced prepositioned equipment sets and created activity sets to 
support operations in Europe, the Pacific and around the world. 
Activity sets are prepositioned sets of equipment that enable U.S. 
regionally-aligned forces and multinational partners in Europe to train 
and operate. We have also reinvigorated our Emergency Deployment 
Readiness Exercise program and enhanced the en route mission command 
capability of our Global Response Force. The President's Budget request 
provides sufficient capability to respond in each Geographical 
Combatant Command's area of responsibility.
    The Army continues to be a good steward of the resources 
appropriated for replacement, recapitalization and repair of materiel 
returning from operations conducted in Afghanistan. In 2014, the Army 
efficiently synchronized equipment retrograde out of theater. 
Redeployment and retrograde operations remain on schedule; however, the 
Army continues to forecast a need for reset funding for 3 years after 
redeployment of the last piece of equipment from theater. A steady, 
responsible drawdown of personnel and equipment demonstrates good 
stewardship of resources while facilitating transition to the post-2014 
Resolute Support Mission in Afghanistan. In addition, we identified 
almost $2 billion of potential requirement reductions in Contractor 
Logistics and Training Support, and took advantage of our wartime reset 
program to reduce Depot Maintenance by over $1.3 billion over 5 years. 
These changes allowed the Army to increase the capability of its 
prepositioned stocks program without an increase in the associated 
costs.
    The proliferation of information and communications technologies 
increases the momentum of human interaction, creating a constantly 
shifting geopolitical landscape. An Army that is globally engaged and 
regionally aligned requires access at the point of need, robust network 
capacity and capability that is tailorable and scalable. The Army's 
strategy is to effectively leverage joint networks, transition to 
cloud-based solutions and services, reduce the culture of controlling 
network resources and divest legacy systems to make way for resources 
to build network modernization. Over time, this will significantly 
boost information technology operational efficiency, improve mission 
effectiveness and posture the Army to more quickly adapt and innovate.
    The Army continually seeks incremental improvements to its 
institutional organizations, processes and business systems in order to 
provide ready forces in the most fiscally responsible way for the 
Nation. The Army is expanding its efforts to control the cost of 
business operations by reducing the size of headquarters units, which 
we view as a fiscal imperative. Progressive fielding of Enterprise 
Resource Planning systems is enhancing accountability, changing 
business processes and enabling the retirement of legacy systems that 
will ultimately reduce our overall costs. Our workforce is adapting to 
new systems and processes inherent in increased internal controls and 
enterprise connectivity across business domains. Army leaders are 
actively engaged in change management and committed to meeting audit 
readiness goals and the September 2017 audit assertion of our financial 
statements. We continue to challenge the status quo, enabling the 
institutional Army to perform its activities smarter, faster and at 
reduced cost to provide more resources for readiness.
                         ensuring a modern army
Modernization
    Decreases to the Army budget over the past several years have had 
significant impacts on Army modernization and threaten our ability to 
retain overmatch through the next decade. Since 2011, the Army has 
ended 20 programs, delayed 125 and restructured 124. Between 2011 and 
2015, Research and Development and Acquisition accounts plunged 35 
percent from $31 billion to $20 billion. Procurement alone dropped from 
$21.3 billion to $13.9 billion. We estimate sequestration will affect 
over 80 Army programs. Major impacts include delays in equipping to 
support expeditionary forces, delays in combat vehicle and aviation 
modernization, increases in sustainment costs to fix older equipment 
and increases in capability gaps.
    Our intent is to modernize and equip Soldiers with effective, 
affordable and sustainable equipment that is ready and tailorable to 
support the full range of Combatant Command requirements. The 
President's Budget request would provide over $2 billion to address the 
growing gaps in our modernization accounts. Even with this additional 
funding, modernization remains more than $3 billion short of the 
historical average as a percentage of the Army's budget.
    The Army will continue to protect Science and Technology (S&T) 
investments critical to identifying, developing and demonstrating 
technology options that inform and enable affordable capabilities for 
the Soldier. S&T efforts will foster innovation, maturation and 
demonstration of technology-enabled capabilities, maximizing the 
potential of emergent game-changing landpower technologies. Key 
investments include Joint Multi-Role Helicopter, the foundation for the 
Army's Future Vertical Lift capability; combat vehicle prototyping; 
assured Position, Navigation and Timing and enhancing cyber operations 
and network protections. We continue to explore the possibilities of 
cyber, high-energy laser, materials, human performance and quantum 
science technologies for a variety of applications.
    The centerpiece of the Army's Modernization Strategy continues to 
be the Soldier and the squad. The Army's objective is to rapidly 
integrate technologies and applications that empower, protect and 
unburden the Soldier and our formations, thus providing the Soldier 
with the right equipment, at the right time, to accomplish the assigned 
mission. The Army will support this priority by investing in 
technologies that provide the Soldier and squad with advanced war 
fighting capabilities such as enhanced weapon effects, next generation 
optics and night vision devices, advanced body armor and individual 
protective equipment, unmanned aerial systems, ground based robots and 
Soldier power systems.
    Improvements to mission command will facilitate the decisionmaking 
of leaders and Soldiers across all tactical echelons for Unified Land 
Operations in support of the Joint Force and allies. The Army will 
develop and field a robust, integrated tactical mission command network 
linking command posts, and extending out to the tactical edge and 
across platforms. We will build enhanced mission command capabilities 
and platform integration by fielding software applications for the 
Common Operating Environment, while working to converge operations and 
intelligence networks. Based on the current and projected demands for 
ISR, the Army adjusted the Gray Eagle unmanned aerial system program's 
fielding schedule to make more assets available to strategic and 
operational commanders this year. The Army also expanded the Aerial 
Intelligence Brigade with an additional 18 Gray Eagles for a total of 
36 aircraft, and an increase from 48 to 165 soldiers per company.
    With respect to combat platforms, and those desired to enable 
greater protected mobility, the Army's objective is to consider the 
most stressing contingency operations and make its fleets more capable. 
In addition to the Apache AH-64E and Blackhawk UH-60M investments, 
which support the Army's Aviation Restructure Initiative, the Army will 
continue development of the Armored Multi-Purpose Vehicle to replace 
the obsolete M113 family of vehicles and begin to produce the Joint 
Light Tactical family of vehicles. The Army will also continue to make 
improvements to the survivability, lethality, mobility and protection 
of the Abrams tank, Bradley Infantry Fighting Vehicle and Paladin self-
propelled howitzer fleets. While resource constraints will force the 
Army to delay new system development and investment in the next 
generation of capabilities, we will execute incremental upgrades to 
increase capabilities and modernize existing systems.
    Few choices remain if modernization accounts continue to bear the 
brunt of sequestration. Most programs are already at minimum economic 
sustaining levels, and further reductions will rapidly increase the 
number of cancellations. Those programs remaining will have higher unit 
costs and extended acquisition schedules. Sequestration will create 
severe reductions in buying power and further delays filling capability 
gaps, forcing the Army to tier modernization--creating a situation of 
``haves and have nots'' in the force. Rapid regeneration to fill 
modernization gaps and the ability to ensure interoperable, networked 
formations will come at a premium in cost and time. Most complex 
systems in production now take 24-36 months to deliver once Congress 
appropriates funding, while new starts or re-starts take even longer. 
To address the steep reductions in modernization accounts, the Army 
emphasizes early affordability reviews, establishing cost caps (funding 
and procurement objectives), synchronizing multiple processes and 
divesting older equipment quickly.
Organic and Commercial Industrial Base
    The Army's Industrial Base consists of Government-owned (organic) 
and commercial industrial capability and capacity that must be readily 
available to manufacture and repair items during both peacetime and 
national emergencies. We are concerned that we will not be able to 
retain an Army Industrial Base that provides unique capabilities, 
sustains the capacity for reversibility and meets the manufacturing and 
repair materiel demands of the Joint Force. In the Commercial 
Industrial Base, prime suppliers have increased their role as 
integrators, and delegated key innovation and development roles to a 
vast and complex network of sub-tier suppliers. Sub-tier suppliers have 
responded with their own complex network of suppliers, some of which 
are small, highly skilled and defense dependent firms--these small and 
specialized firms serve as the warning indicator that gauges the health 
of the overall industrial base. In fiscal year 2014, the Army 
identified those commercial sector industrial capabilities vital to our 
national defense and sustainment of a credible and capable smaller 
force. We must continue to protect these capabilities.
Cyber
    Network dominance and defense is an integral part of our national 
security, and the Army is focused on proactively providing increased 
capability to the Joint Force. With the evolving cyber environment, the 
Army has been proactively adapting to cyber threats and vulnerabilities 
by transforming processes, organizations and operating practices. As 
the Army restructures LandWarNet to support operations worldwide, it is 
imperative we rapidly innovate and fund network and cyber 
infrastructure, services, security and capabilities.
    A number of institutional transformations are in place or ongoing 
to build and sustain the Army's future cyberspace force requirements. 
To be more agile and responsive, while improving unity of command and 
synchronization of cyberspace operations, we have consolidated Army 
Cyber Command (ARCYBER), 2nd Army and the Joint Force Headquarters-
Cyber under one commander. The Army has established the Cyber Center of 
Excellence at Fort Gordon, GA, and will serve as our focal point to 
drive change across the Army. The proponent lead for cyberspace 
operations shifted from ARCYBER to the Cyber Center of Excellence under 
the U.S. Army's Training and Doctrine Command (TRADOC). Additionally, 
we established an Army Cyber Institute at West Point to collaborate 
with government partners, industry and other higher education 
institutions to develop cyber solutions. The creation of a cyber 
network defender enlisted specialty and the Cyber Branch within the 
officer corps was an effort to help focus and manage the Army's cyber 
talent.
    In terms of new and emerging initiatives, ARCYBER and the 
acquisition community are pursuing ways to bring capabilities, 
including big data analytics, to Army operations in order to improve 
our cyber defense capability. We play a vital role in cyber operations 
across the DOD and the Joint Force by providing Cyber Protection Teams 
and Cyber Support Teams. Recent DOD decisions have resulted in the 
pursuit of a defense-wide global implementation of network 
modernization, including the Joint Regional Security Stacks, to enhance 
the security of our networks. We continually conduct assessments to 
better understand cyber vulnerabilities in our combat platforms and 
communications systems. We must make prudent investments in our cyber 
infrastructure, including facilities, networks and equipment to ensure 
a capable force. The Army is currently reviewing cyber training range 
capabilities and capacities to better assess future requirements. All 
these efforts will generate resourcing requirements, which will have to 
compete against other equally urgent priorities within the Army.
Installations, Water and Energy
    Since 2012, as the Army implemented several rounds of budget 
reductions, our installation programs have seen dramatically reduced 
services and sustainment. Although we have survived for 2 years at 
these reduced funding levels by deferring critical facility maintenance 
and cutting back on services, should the increases proposed by the 
President not materialize, we will seriously impair our facilities and 
have to permanently reduce important programs and services. Even with 
these increased funds, facilities maintenance is funded at only 79 
percent in fiscal year 2016, which translates to higher future repair 
and renovation costs.
    As stated in previous testimony, we need another round of Base 
Realignment and Closures (BRAC). We simply have too much surplus 
infrastructure and will have even more as we downsize. We are already 
in the process of separating nearly 152,000 Soldiers, and sequestration 
would force us to separate another 60,000--for a total reduction of 
212,000. In addition, we have reduced over 50,000 Civilians from these 
same installations. Without a BRAC and the realized cost savings, the 
only alternative is to make additional cuts in training, manpower and 
modernization to make up for shortages in installation funding. These 
are not cuts we can afford to make. To date, we have been able to 
mitigate the adverse impact by focusing reductions on Europe and 
eliminating facilities not associated with U.S. installations. Through 
analysis and evaluation, we continue to examine other ways to reduce 
infrastructure within our authorities around the world. We are now 
reducing personnel at U.S. installations and we expect excess facility 
capacity will be about 18 percent Army-wide when we reach the end 
strength ramp of 490,000 for the Regular Army in fiscal year 2015.
    To improve the resilience and efficiency of our remaining 
infrastructure today and in future years, the Army will continue its 
efforts to increase energy efficiency, expand the use of on-site 
renewable energy, reduce water consumption and reduce waste generation. 
This year, we will issue an Energy and Sustainability Strategy that 
focuses on building resiliency. Implementation of this strategy will 
facilitate continuity of operations and improve the Army's energy, 
water and sustainability posture. These actions will also enhance the 
Army's ability to mitigate and adapt to the deleterious effects of 
climate change.
      soldiers and civilians committed to our army and profession
    We must never forget our Soldiers will bear the burden of our 
decisions with their lives and health. As Army professionals, we must 
do everything possible to maintain the trust of our Soldiers, Civilians 
and Families who selflessly sacrifice so much. Today, they trust that 
we properly prepare them with the right tools and resources necessary 
to accomplish the missions that take them into harm's way. To ensure 
the Army maintains the trust of the American people we serve, the Army 
is evaluating ways to further develop our military and civilian 
professionals, and ensure an uncompromising culture of accountability 
exists at every level of command. As the Army prepares for the 
environment that lies ahead, we must anticipate the unique ethical and 
moral challenges the future may present, and remain committed to 
developing Army Professionals of Competence, Commitment and Character.
    The Army Ethic defines the moral principles that guide us in the 
conduct of our missions, performance of duty and all aspects of life. 
Our ethic is reflected in law, Army Values, creeds, oaths, ethos and 
shared beliefs embedded within Army culture. It inspires and motivates 
all of us to make right decisions and to take right actions at all 
times. The Army Ethic is the heart of our shared professional identity, 
our sense of who we are, our purpose in life and why and how we serve 
the American people. To violate the Army Ethic is to break our sacred 
bond of trust with each other and with those whom we serve. Army 
Professionals must fulfill distinctive roles as honorable servants, 
military experts and stewards of our profession.
Adaptive Army Leaders for a Complex World
    The Army Operating Concept will require evolutionary change as we 
deal with the growing complexity of the operational environment, and 
this change begins by changing mindsets. The Army's competitive 
advantage, today and into the future, will always be our Soldiers and 
Civilians. Our top priority is to develop agile and adaptive leaders at 
the tactical, operational and strategic levels. Today and into the 
future, the Army must provide well-led and highly trained Soldiers 
organized into tailorable and scalable organizations that provide our 
Nation's leaders an array of options, both lethal and nonlethal, across 
the entire range of missions. The Army Leader Development Strategy 
calls for the development of leaders through a career-long synthesis of 
training, education and experiences acquired through opportunities in 
institutional, operational, broadening and self-development learning 
formats, supported by peer and developmental relationships. Leader 
development and optimized Soldier performance are directly linked to 
the Army's ability to operate in the future. We must develop 
multidimensional, adaptive and innovative leaders who thrive in 
decentralized, dynamic and interconnected environments.
    Leader development is the deliberate, continuous and progressive 
process--built on a foundation of trust and founded in Army values--
that grows Soldiers and Civilians into competent, committed 
professional leaders of character. As an institution transitioning from 
extended combat rotations, we must regain our expertise as trainers and 
improve the support and delivery of realistic training. Home station 
and centralized training must leverage both current and emergent 
technologies and integrate the latest capabilities, such as cyber; 
hybrid threats and Joint, interorganizational and multinational 
organizations.
    Today's combat environment requires dynamic leaders and Soldiers. 
To ensure all Soldiers are adequately prepared, entry-level Soldier 
training focuses on fostering individual resiliency, battlefield 
skills, Army values and developing the credentials to succeed in the 
Army and excel afterward. The NCO development model is a deliberate, 
analytical and data-driven process that constantly evaluates and 
adjusts to ensure all leaders have the right tools to lead and mentor 
others in today's and tomorrow's dynamic worlds. This model is 
collectively known as NCO 2020, which looks at training from the 
operational, institutional and self-development domains to ensure a 
career of lifelong learning and of harnessing experience and 
proficiency at all levels. This includes a revamping of the NCO 
education system and a renewed emphasis on individual and collective 
task training to help mitigate the effects of a reduction in Combat 
Training Center rotations.
    Today, the Army is expanding broadening opportunities for its NCOs, 
Warrant Officers and Officers with programs like Training with 
Industry, Strategic Broadening Seminars and the Congressional 
Fellowship Program. Broadening and educational experiences for senior 
field grade through general officers is also an area that must not be 
overlooked. Developing well-rounded senior leaders who are capable of 
effectively communicating the needs and capabilities of the profession 
to Civilian leaders within the larger context of national concerns is 
critical to the Nation.
    It is imperative that our leaders and organizations are capable of 
thriving in Joint interorganizational and multinational teams, and that 
they seamlessly integrate multi-domain effects from air, sea, space, 
cyber or land. This places a premium on innovation--on leveraging 
current and emerging concepts and technologies both today and going 
forward. Encouraging innovation and empowering all leaders with the 
skills required to win in a complex world, manage complex institutional 
processes and influence strategic decisionmaking within a broader 
operating environment is paramount to the Army's future.
    More than 250,000 people working in nearly 500 unique job series--
about 20 percent of the Total Army Force--comprise the Army Civilian 
corps. Given the size, complexity, impact and importance of the 
Civilian cohort to the Army, we established the Army Civilian Workforce 
Transformation (CWT). CWT is the Army's strategic campaign to transform 
the Army's Civilian cohort for the future and develop a more adaptable, 
capable and technically proficient Army Civilian who is well grounded 
as a leader.
Soldier 2020 and Increased Opportunities for Women
    In 2012, the Army initiated a deliberate Service-wide effort--
Soldier 2020--to ensure our units are filled with the best qualified 
Soldiers. This effort includes opening previously closed positions and 
occupational specialties to women, while maintaining our combat 
effectiveness. The Soldier 2020 initiative seeks to remove as many 
barriers as possible and allow talented people--regardless of gender--
to serve in any position in which they are capable of performing to 
standard.
    Over the past 27 months, we have opened six previously closed 
Military Occupational Specialties and over 55,000 positions across all 
Army components to women. This includes opening 1,562 positions in 
United States Army Special Operations Command, including the 160th 
Special Operations Aviation Regiment. The Army is validating gender-
neutral physical standards and completing a gender integration study, 
work that will inform decisions on opening the 14 remaining Military 
Occupational Specialties currently closed to women. Once the study is 
completed, we will make a recommendation to the Secretary of Defense on 
opening as many as 166,000 positions across the Active and Reserve 
Components to our women in uniform. As part of the Soldier 2020 
initiative, the Army Ranger School assessment program will begin this 
spring to assess female Soldiers and Officers into Army Ranger School. 
The Army continues to proceed in an incremental and scientific-based 
approach to integrating women into previously closed units, positions 
and occupations while preserving unit readiness, cohesion, discipline 
and morale. The Army will complete all actions to meet Office of the 
Secretary of Defense requirements prior to January 1, 2016.
Sexual Harassment/Assault Response and Prevention (SHARP) Program
    From the Secretary and Chief of Staff of the Army down to our 
newest Soldiers, we continue to attack the complex challenges of Sexual 
Assault. While we have made progress, much work remains. Sexual assault 
is a crime that violates the core values on which the Army functions, 
and sexual harassment shatters good order and discipline. Sexual 
harassment and sexual assault must be stamped out, and doing so remains 
a top priority throughout the Army. Commanders, the Chain of Command, 
and the Uniform Code of Military Justice provide the vital tools needed 
to prosecute offenders and hold all Soldiers and leaders appropriately 
responsible.
    Across the Army, we are committed to maintaining momentum in Army 
SHARP and making further advances along our five lines of efforts: 
Prevention, Investigation, Accountability, Advocacy and Assessment. In 
the last year, our efforts along the Prevention Line of Effort resulted 
in actions such as consolidating SHARP training under TRADOC and 
Initial Entry Training and Professional Military Education to increase 
the quality and accessibility of our prevention tools. Our 
Investigation Line of Effort showed advances in Special Victim 
capabilities and Trial Counsel Assistance Programs. The Accountability 
Line of Effort had successes through our Special Victim Investigation 
and Prosecution capability and through tools such as Command Climate 
Surveys and Commander 360 degree assessments. Our Advocacy Line of 
Effort resulted in initial indicators of progress in establishing SHARP 
resource centers in over 12 installations. We continue to see interim 
progress along our Assessment Line of Effort as noted in the 
President's report and we continue to closely monitor the established 
metrics to measure compliance.
    In sum, we have seen some progress as evident in the recent 
statistics outlined in the 2014 ``Department of Defense Report to the 
President of the United States on Sexual Assault Prevention and 
Response'' that indicate a decrease in unwanted sexual contact in 
fiscal year 2014 compared to fiscal year 2012. Within the Army, survey-
estimated rates of unwanted sexual contact for the past year decreased 
significantly for active duty women (4.6 percent), compared to fiscal 
year 2012 (7.1 percent). In addition, reporting data demonstrates more 
victims are coming forward to report sexual harassment and sexual 
assault. In fiscal year 2014, sexual assault reporting in the Army 
increased by 12 percent over the previous year. We view this as a vote 
of confidence and a sign of increased trust in our leaders, in our 
response services and in changing Army culture. The decline in 
prevalence of unwanted sexual contact, combined with the increase in 
reports received, suggests the Army's efforts to prevent sexual assault 
and build victim confidence in our response system are making progress. 
Nevertheless, we must continue to work on fostering a climate where 
individuals are not afraid of retaliation or stigma for reporting a 
crime by ensuring individuals, units, organizations and specifically 
commanders and leaders understand their responsibilities. Retaliation 
takes many forms and originates from many sources--leaders, family, 
friends and, most pervasively, peer to peer. Retaliation in its 
simplest form is bullying. It is intimidation that deters people from 
acting. It enables offenders, threatens survivors, pushes bystanders to 
shy from action, and breeds a culture of complacence. Retaliation has 
no place in the Army and we must stamp it out.
    Sexual Assault Response Coordinators and Sexual Assault Prevention 
and Response Victim Advocates are now credentialed through the DOD 
Sexual Assault Advocate Certification Program, and the Army's SHARP 
Academy is expanding their knowledge, skills and abilities. Based on 
national experts' guidance, the Army's Sexual Assault Medical Forensic 
Examiner's course now surpasses Department of Justice requirements and 
establishes a best practice for all DOD to follow.
    The chain of command is at the center of any solution to combat 
sexual assault and harassment, and we must ensure it remains fully 
engaged, involved and vigilant. Toward this end, we enhanced the 
Officer and Enlisted Evaluation Reporting Systems to assess how 
officers and NCOs are meeting their commitments--holding them 
accountable through mandatory comments on how those leaders are acting 
to foster a climate of dignity and respect and their adherence to our 
SHARP program. With commanders at the center of our efforts, we will 
continue to decrease the prevalence of sexual assault through 
prevention and encourage greater reporting of the crime. We expect to 
see reporting numbers to continue to rise. As our efforts to enforce 
discipline, prosecute offenders and eliminate criminal behavior mature, 
we expect the number of sexual assaults occurring within the Army to 
eventually decrease. There is no place for sexual harassment or sexual 
assault in our Army or our society.
    The problems of sexual assault and sexual harassment will only be 
solved when every Soldier, Civilian and Family Member stands up and 
unequivocally acts to stamp it out. Together, we have an obligation to 
do all we can to safeguard America's sons and daughters, as well as 
maintain trust between Soldiers, Civilians, Families and the Nation. 
Army leaders, at every level of the chain of command, are doing this 
through prevention, investigation, accountability, advocacy and 
assessments.
               maintaining the premier all volunteer army
    As we shape the force of the future, we must enhance force 
readiness, while taking care of the men and women who serve. This 
means, while providing Combatant Commanders with versatile and trained 
forces, we also have an obligation to support our Soldiers, Families 
and Civilians while they serve in the Army, and as they transition back 
to civilian life. Those who make up the Total Army--Soldiers, Families 
and Civilians; Regular Army, Army National Guard and Army Reserve--
represent its strength. ``Total Army Strong'' expresses our enduring 
commitment to Soldiers, Families and Civilians, and to sustain a system 
of programs and services to mitigate the unique demands of military 
life, foster life skills, strengthen resilience and promote a strong 
and ready Army. ``Total Army Strong'' provides commanders flexibility 
to prioritize and adjust programs and services, regardless of 
geographic location.
    We recognize that attracting and retaining highly-qualified 
individuals in all three components is critical to readiness. However, 
the stronger economy, including lower unemployment, poses challenges to 
recruiting and retention in fiscal year 2016. Due to obesity, medical 
conditions and other reasons, less than one-third of otherwise-eligible 
Americans would even qualify for military service. Though we face 
recruiting challenges in fiscal year 2016, we will man our formations 
with highly-qualified and diverse Soldiers by continuing and 
strengthening those recruitment and retention programs that best 
enhance and sustain the All-Volunteer Army.
Ready and Resilient Campaign
    We must support and appropriately resource the Army's Ready and 
Resilient Campaign. This campaign provides holistic, evidence-based 
tools, training and resources to our commands and leaders who care for 
our Soldiers, Civilians and Family members so they can strengthen their 
resilience and achieve and sustain personal readiness. The Army's Ready 
and Resilient capabilities improve the physical, emotional and 
psychological resilience of the entire force, attack the foundation of 
acts of indiscipline and prevent negative behaviors from escalating to 
damaging events such as suicide or sexual assault. We must ensure the 
overall readiness and resilience of the Total Army Family through 
optimal sleep, activity and nutrition--the Performance Triad. The 
Performance Triad strengthens individual and unit readiness through a 
comprehensive approach that promotes leadership and behavior change 
strategies to improve personal and unit readiness and resilience, as 
well as physical, emotional, and cognitive dominance through optimized 
sleep, physical activity, and nutrition. The Performance Triad empowers 
leaders to coach and mentor health readiness using technology to 
actuate behaviors that support lasting cultural change as a mandate of 
the Army profession.
Soldier for Life
    Soldier for Life is not just a program; it is a change in mindset. 
One way we encourage this frame of mind is through senior leader and 
installation engagements, as well as changes in training curriculum. We 
want Soldiers to understand and believe from the time they come into 
the Army and for the rest of their lives, that they deserve our utmost 
care and attention throughout the Soldier lifecycle--``Once a Soldier, 
always a Soldier . . . a Soldier for Life!'' As Soldiers return to 
civilian life, they will continue to influence young people to join the 
Army and, along with retired Soldiers, will connect communities across 
the Nation with its Army.
    As we reduce the Army's end strength, we owe it to our Soldiers and 
their Families to facilitate their transition to civilian life. The 
Army supports continuum of service initiatives to help in this effort 
by communicating the benefits of continued service in the Reserve 
Components. Additionally, the ``Soldier for Life'' Program connects 
Army, governmental and community efforts to facilitate the successful 
reintegration of our Soldiers and Families back into communities across 
the Nation through networks in employment, education and health. Our 
pre- and post-retirement services ensure those who served become and 
remain leaders in their community. For example, we have developed 
strong relationships with government, non- government and private 
sector entities to include direct collaboration with the Departments of 
Veterans Affairs, Labor, and the Chamber of Commerce to bring 
employment summits to installations worldwide.
                                closing
    We face a period of critical decisions that will impact the Army's 
capability and capacity for the next decade. It is important that we 
make the right decisions now. The operational and fiscal environments 
are straining the Army as we attempt to balance end strength, readiness 
and modernization to meet current demands while building the 
foundations of a force that can meet future challenges. The velocity of 
instability continues to increase worldwide, whether of ISIL and 
terrorism in Iraq, Syria and Yemen; anarchy and extremism in North 
Africa; Russian belligerence; provocation by North Korea; or complex 
humanitarian assistance requirements and the unpredictable nature of 
disaster relief missions. But despite all of this, we continue to 
reduce our military capabilities, degrade readiness and erode trust 
with the specter of sequestration. We ask the help of Congress to 
eliminate sequestration and provide our Soldiers with greater 
predictability in these uncertain times. We must not reduce the Army 
below 980,000 Soldiers and leave the Army unprepared to meet Defense 
Strategic Guidance or respond to some unforeseen event.
    Our strategic partnership with Congress is absolutely critical to 
the Army's success. Simply put, our Soldiers and Civilians could not do 
what they do each day without your support. Our Army needs 
Congressional support now more than ever. The decisions we make this 
year and next on our fiscal policy, and related end strength, readiness 
and modernization will directly impact the security of the United 
States and the world for decades to come. Today, we have the most 
capable and professional Army in the world. Our Soldiers have gained 
invaluable experience and expertise; built relationships among 
interagency partners, allies and each other and developed an intimate 
understanding of the world we live in. As we reduce the size of our 
Army, each Soldier leaving the ranks takes with him or her invaluable 
experiences and a deep understanding that has come at great cost and is 
impossible to replace in short order.
    We look forward to working with Congress to ensure the Army is 
capable of fulfilling its many missions, while continuing to be good 
stewards of the taxpayers' money. Despite ongoing fiscal uncertainties, 
we are pleased to report professionalism and morale within the Army 
remains strong. Whether advising and assisting in Afghanistan and Iraq, 
supporting allies in Europe and the Republic of Korea, serving in the 
homeland or engaging our partners around the world, the indomitable 
spirit of our greatest assets, our Soldiers--our Nation's Trusted 
Professionals--stands ready: Ready to safeguard our Nation's liberty, 
deter aggression and protect our national interests at home and abroad. 
With your assistance, we will continue to resource the best-trained, 
best-equipped and best-led fighting force in the world: the U.S. Army.

    Senator Cochran. Thank you very much, Mr. Secretary.
    General Odierno, would you like to make an opening 
statement?
STATEMENT OF GENERAL RAYMOND T. ODIERNO, CHIEF OF STAFF
    General Odierno. Thank you, Chairman, and Vice Chairman 
Durbin. I also want to send my prayers to the families of our 
soldiers and marines that we lost today. I believe that this is 
a reminder of the sacrifices and commitment that so many of our 
young men and women are providing every single day to our 
country, and it's important for us to ensure they are resourced 
properly.
    Chairman, today the international security environment 
continues to be challenged by transnational extremist 
organizations, as well as by the aggressive actions of several 
nation states. We face the ruthless behavior of ISIL in Iraq 
and Syria and persistent threats in Yemen and Libya and other 
parts of North and Central Africa. Russian aggression pressures 
the resolve of both the European Union and NATO; while in the 
Pacific, China and North Korea alarm our allies and concern our 
regional interests. We also continue to have ever-evolving 
threats to our homeland.
    This is not the time to be divesting of our military 
capabilities and capacities. But over the last 3 years, we have 
done just that, decreasing the Active component end-strength by 
80,000, and our National Guard and Reserves by 18,000. We have 
deactivated 13 Active-Duty brigade combat teams, and we are in 
the process of eliminating three active component combat 
aviation brigades. We are reducing the total aviation force by 
800 aircraft, with almost 700 coming out of the Active 
component. We have slashed our investments in modernization by 
25 percent. We have purged our most needed infantry fighting 
vehicle modernization and Scout helicopter developmental 
programs.
    The unrelenting budget impasse has also compelled us to 
degrade readiness to historically low levels. Today, only 33 
percent of our brigades are ready, when our sustained readiness 
rates should be closer to 70 percent.
    The compromises we have made to modernization and 
readiness, combined with reductions to our force size and 
capabilities, translates into strategic risk. We are unable to 
generate residual readiness to respond to unknown contingencies 
or to reinforce ongoing operations. We have fewer soldiers, the 
majority of whom are in units who are not ready, and they are 
manning aging equipment at a time when demand for Army forces 
is much higher than anticipated.
    The President's fiscal year 2016 budget submission 
recognizes these challenges. But even the President's budget 
represents the bare minimum needed for us to carry out our 
missions and execute and meet the requirements of our defense 
strategy.
    In order for this budget to work, all of our proposed 
reforms in pay and compensation must be approved. All of our 
force structure reforms must be supported to include the 
aviation restructuring initiative. And we must be allowed to 
eliminate a half billion per year of excess infrastructure 
capacity that is currently in the Army.
    We can undertake the proposed reforms or we can accept 
increased risk. If these reforms and force structure reductions 
are not approved, this equates to a potential $12 billion 
shortfall in our budget, comprised of $6 billion in reforms and 
$6 billion in costs that are masked in OCO (overseas 
contingency operations) funding that must ultimately transfer 
into our base budget.
    If BCA (Budget Control Act) caps come back, I want to 
emphasize again that it would render us unable to meet the 
defense strategy. Sequestration would compel us to reduce even 
further the Army end strength, forcing out another 70,000 over 
the next 5 years from the Active component, 35,000 from the 
National Guard, and 10,000 from the Army Reserves. We would cut 
out 10 to 12 additional combat brigades. Modernization would 
come to a standstill, training would go unfunded, and readiness 
rates, both unit and individual, would fall to very low levels.
    Anything below the President's budget compromises our 
strategic flexibility. It inadequately funds our readiness. It 
further degrades an already underfunded modernization program. 
It impacts our ability to conduct simultaneous operations and 
shape regional security environments. It puts into question our 
capacity to deter and compel multiple adversaries.
    But even as the Army confronts a fragile budget and looming 
BCA caps, we do continue to seek efficiencies while adapting to 
an unstable world. We have taken advantage of a war-time reset 
program to reduce depot maintenance by $3.2 billion. We are 
reducing our reliance on contract logistic support, which will 
result in nearly $2 billion in cost savings. We have identified 
and are avoiding costs in excess of $12 billion through our 
aviation restructuring initiative. We have eliminated 12,000 
positions by reducing all two-star and above headquarters by 25 
percent. We have reorganized our brigade combat teams, 
eliminating overhead and maximizing our combat capacity. And we 
continue to achieve individual and collective training 
efficiency as we move forward.
    Our sexual harassment and sexual assault prevention remains 
our top priority. While recent reports are clear that we have 
made some initial progress on sexual harassment and assault 
prevention, we still have much work to do. Our men and women 
deserve to be treated with dignity and respect and should 
expect a work environment that is free of harassment, assault, 
and retribution. A culture of inclusion and of mutual and 
shared trust is essential.
    Chairman, I continue to be inspired by the unparalleled 
experience and professionalism of the men and women of the 
United States Army. They demonstrate unwavering dedication and 
commitment to the mission, to the Army, and to our Nation. We 
have units engaged in Afghanistan, Iraq, Jordan, Kosovo, and 
across the African continent. We have rotational forces in 
Europe, Kuwait, and throughout the Pacific to include Korea. We 
owe it to them to ensure they have the right equipment, the 
best training, and the appropriate family programs, healthcare, 
and compensation packages commensurate with their sacrifices.
    The decisions we make today and in the near future will 
impact our soldiers, our Army, and our Nation for the next 10 
years. The burden of miscalculation and under-investment will 
directly fall on the shoulders of our men and women who we will 
ask to defend this nation. We simply cannot allow this to 
happen.
    I look forward to working with you to solve these difficult 
problems, and I look forward to your questions. Thank you very 
much, Chairman.
    Senator Cochran. Thank you, General. We appreciate your 
comments.
    I'm going to yield to other Senators in order of their 
position on the committee and attendance to the hearing.
    With that, I'm going to yield to the distinguished Senator 
from Illinois, Mr. Durbin.
    Senator Durbin. Thank you, Senator Cochran.
    I have two questions. I'll pose both of them. Each of you 
can decide who will answer.
    The first question is this: Sequestration is an awful 
alternative, and it is not only harmful when it comes to our 
national defense, it has equally onerous impact on our non-
defense spending as well. So I hope we don't lapse or fall into 
this mindless strategy of following sequestration. I'm glad the 
President's budget did not, and we should not. I hope we have 
the leadership to overcome it.
    Speaking of saving money, I've asked questions for many 
years around here, the Sampson Bowles Commission and other 
places, of the Department of Defense. Tell me about the 
contractors that are working for you. How many people are 
working as contractors, and what do they cost, and how many of 
them are being reevaluated or reduced?
    It turns out most of the professional estimates say that a 
contractor employee costs almost three times as much as a 
civilian employee for the Department of Defense. The reports 
from the GAO (Government Accountability Office) suggest that 
the data coming out of the Department of Defense in general--
and I'm not specifying the Army, Mr. Secretary, but in 
general--are not very specific in terms of keeping an eye on 
the costs there and reducing those costs where necessary.
    So I'd like you to address what you're doing when it comes 
to contractors.
    The second area is more specific, and it's a result of my 
sitting on a lot of airplanes reading a lot of magazines, and 
in this case reading Atlantic magazine and an article written 
by Robert Scales. It was entitled, ``Gun Trouble,'' and I'll 
summarize it with this heading.
    He says, ``The rifle that today's infantry uses is little 
changed since the 1960s and it's badly flawed. Military lives 
depend on these cheap composites of metal and plastic, so why 
can't the richest country in the world give its soldiers better 
ones?''
    So I'd like to ask you to address both of those questions, 
please.

                      CONTRACTOR EMPLOYMENT COSTS

    Secretary McHugh. Well, if I may, Senator, I'll start on 
the contractor issue, and the data points that you referenced I 
think we all generally agree with as to a unit-for-unit cost, 
and we're doing everything we can to respond to that reality 
and to save money by reducing contractor reliance.
    I would tell you, frankly, and I can't speak for the other 
services, the Army finds contractors in the right time and 
place is absolutely essential. What they do bring to the table 
is a necessary expertise, hopefully within not a prolonged 
state of time, the ability to bring them on and off-board them 
much more efficiently than we can a full-time civilian 
equivalent within the Army. So we will be using them.
    But to your larger question, we measure contractors and 
full-time equivalents, FTEs, and over the last several years 
we've reduced and in-sourced contractor positions by more than 
10,000. So that's a straight reduction of our contracting 
utilization, in no small measure because we're coming down in 
Afghanistan in numbers, but that's come down by nearly 13 
percent. There's about 5,000 Army contractors left in 
Afghanistan at this moment.
    So as part of our restructure initiative--and the Chief 
mentioned what we're doing at headquarters and up levels, 
taking 25 percent of the administrative staff--is trying to 
ensure that where we do use contractors, it's justifiable both 
in terms of the mission and in terms of dollars. Certainly, the 
Chief could add some more comments if he chooses to on 
contractor logistic support. As he mentioned, we're saving 
significant money there as well.
    General Odierno. Chairman, two comments. We're absolutely 
aware of this issue of contractors, and what's important is 
over the last 10 or 12 years we became more reliant on 
contractors as we were burdened by two wars at the same time. 
So we're very conscious of the problem.
    There are two things that I would suggest we are doing 
specifically. One is contractor logistic support. We took much 
of the work out of the hands of our soldiers and put it in the 
hands of contractors in order to meet the increased demand. We 
are in the process of significantly reducing that.
    We have saved $2 billion already in contractor costs by 
training our soldiers and giving them back the expertise that 
is necessary to sustain our equipment, and I expect that will 
double in the next several years as we continue to transition 
these responsibilities back to our soldiers, who I want to be 
experts in sustaining our equipment. Some of that had to do 
with the purchase of new systems as we were still at war.
    The second part is at our installations. We have over-
relied on contractors to do tasks at our installations that I 
believe can be done in many different ways to include using 
soldiers, because I think in some cases our soldiers--it's part 
of their training in order to be used in some areas. For 
example, guarding our installations. For us, they do that while 
they're deployed. It's an important task. It's a leadership 
task.
    So we can reduce contractor costs by using our soldiers to 
do some of these tasks which we think are military related. So 
we are in the process of reviewing all of that.
    We still have to take a look at where we have some 
contractors that are doing some things that I believe should be 
done either by Department of the Army civilians or by uniformed 
military, and we are continuing to look at that. So we 
understand and are working very hard to continue to work those 
efficiencies.
    On our rifle, I would disagree with the comment that we do 
not have a good weapon system. We have made approximately--I 
think it's 96 modifications to our rifle over the last 10 or 12 
years. We have done that by lightening the system, by giving it 
better sights, by giving it better ammunition, by continuing to 
make ease of use more reliable, and I'm very confident in the 
system that we have now, and I believe it still is performing 
extremely well, whether it be in Afghanistan, whether it was in 
Iraq or anywhere where we use it around the world.
    Senator Durbin. If you have not seen this article in the 
Atlantic, I wish you'd take a look at it and comment 
separately.
    General Odierno. Thank you.
    Senator Durbin. Thank you.
    Senator Cochran. Senator Shelby.
    Senator Shelby. Thank you.

                    ISLAMIC STATE OF IRAQ AND SYRIA

    General Odierno, on November 7, 2014, President Obama 
authorized a further 1,500 troops, in addition to the 3,100 
American troops already deployed to Iraq. That's my 
understanding. It's also my understanding that these troops 
have not been called up for deployment yet.
    Given President Obama's recent request to Congress for an 
authorization for the use of military force, what role do you 
see, General, American ground forces playing in the battle 
against ISIS (Islamic State of Iraq and Syria)?
    General Odierno. Senator, if you don't mind, first we do 
actually have 3,100 or about 3,000 in Iraq now. About 2,400 of 
those are U.S. Army soldiers, and they are there now.
    Senator Shelby. Okay.
    General Odierno. Their role in Iraq right now is to train 
and advise Iraqi security forces, provide them the expertise 
and necessary competence in order to take the fight to ISIS. We 
are doing that on several fronts in Baghdad, up in Irbil with 
the Peshmerga, and out west in Al Asad Airbase.
    Senator Shelby. What can you tell us as to the progress 
that you feel has been made, if there is progress, on training 
a lot of these troops who we saw cut and run on the battlefield 
just a few months ago?
    General Odierno. What I would say, Senator, is that my 
opinion is that the reason we saw them cut and run a year ago 
or 10 months ago has more to do with leadership than it has to 
do with training. I believe that the leaders that had been 
replaced were ineffective and inefficient, and I think that 
drove the young men and women to decide not to fight.
    I also think a lack of confidence in their own government 
caused that. So an important part of the strategy is rebuilding 
the confidence in the government, and also us rebuilding the 
confidence of their soldiers in order to fight as we move 
forward.
    Senator Shelby. Will that be tested soon on the battlefield 
there?
    General Odierno. It has begun to be tested. We've seen some 
success as we operated out west, and we'll continue to see it 
tested on the battlefield.

                             CYBERSECURITY

    Senator Shelby. General, I want to shift to another area, 
cybersecurity, which we have talked about before. Secretary 
Carter's testimony during his confirmation hearing last month, 
he affirmed that a cyber equivalent of Pearl Harbor is a threat 
that we face for which as a nation we're basically unprepared. 
I find that possibility to be disconcerting and worrisome. I'm 
sure you do as well.
    I think we all agree that it's essential that we protect 
our nation against cybersecurity attacks. I understand that the 
President's budget request increases cybersecurity, or would 
increase the funding to $5.5 billion.
    Could you discuss just for a few minutes here the greatest 
cybersecurity threat to the U.S. stems from where, and what can 
we do about it, to combat this?
    General Odierno. I believe that we're seeing the 
development, not only in certain nation states--Russia, China, 
Iran--but also in non-nation states, the ability to potentially 
conduct attacks on the United States, and I think it's 
important for us to understand that, in some ways, that's a 
very inexpensive way to try to disrupt the United States. I 
think it's something that we have to be very, very aware of, 
and it could be done on several fronts, whether it's attacking 
our governmental structure, our military structure, or it could 
be attacking our civilian infrastructure.
    For me, I think it's something that is very, very 
important, and we are investing in that quite heavily right 
now.
    Senator Shelby. It's essential for our future security, is 
it not?
    General Odierno. It is. It's absolutely a central part of 
our national security.

                       SPACE AND MISSILE DEFENSE

    Senator Shelby. General, I want to get into, with the few 
minutes I have here, the space and missile defense. I was 
pleased to see this year that the President's budget request--
and we know it's just a request--$8.1 billion for the Missile 
Defense Agency, which is an 8-percent increase over last year's 
budget request.
    Could you discuss just for a minute or two the importance 
of adequately funding missile defense and how important it is 
for national security?
    General Odierno. We're seeing a growing proliferation of 
ballistic missile capability, whether it be the testing we see 
in North Korea, whether we see the fact that the Russians seem 
to be reinvesting in their nuclear program as well. I think 
it's important for us to have the ability to protect our nation 
from these threats. It's important that we not only ensure that 
we have high readiness to all our ballistic missile forces but 
that we continue to look at more efficient and effective ways 
for us to protect our Nation and our forces that are forward 
deployed.
    I would be remiss if I didn't talk about the ballistic 
missile threat that is faced by our soldiers that are operating 
in the Middle East as well. So we have a large portion of the 
Army ballistic missile force deployed around the world not only 
to protect our homeland but also to protect our soldiers and 
citizens that are operating, as well as our allies, around the 
world.
    Senator Cochran. Thank you, Senator.
    The Senator from Vermont, Mr. Leahy.

                         HELICOPTER MAINTENANCE

    Senator Leahy. Thank you, Mr. Chairman. And again, I think 
all Americans--I just read more breaking news on the helicopter 
crash and the recovery of bodies. I can only imagine how awful 
both of you gentlemen must feel, and your colleagues, because 
you got the news first. Again, our thoughts and prayers go to 
the families of soldiers and Marines who were involved.
    I would hope and maybe just ask a general question. We 
always see news when a helicopter goes down. It's one thing if 
it goes down in a combat area, if it was shot down. This went 
down in training. Is this something that is constantly reviewed 
by the Department of Defense, both the training and the 
readiness and maintenance of these helicopters?
    General Odierno. Senator, absolutely. We review this 
constantly. We have monthly reviews of readiness. We also have 
a safety organization specifically responsible for 
understanding safety throughout the Army, but it spends a lot 
of its time specifically on aviation safety for the Army, and 
rotary wing safety. So we spend a lot of time and effort on 
this, making sure that we look at it thoroughly across the 
total force and that we pass lessons learned as we see mishaps 
occur throughout the force.
    Senator Leahy. We all know the training is necessary, and 
the training is often going to be under less-than-ideal weather 
conditions because you're training for combat and you don't 
know what the weather conditions are going to be, and we 
understand that. I have great confidence in both of you in 
maintaining the readiness and the review. Once the review has 
been done, I'd be pleased to have your staff let me know just 
what happened.

                               READINESS

    I'm probably going to be parochial a bit. The Vermont 
National Guard's 86th Infantry Brigade combat team was the only 
National Guard brigade to attend the joint readiness training 
center last year. They've spent this year ready to deploy if 
called upon. It was the first brigade to go through this force 
generation cycle without then deploying to Iraq or to 
Afghanistan.
    Are there additional resources and experiences that can 
help keep readiness level up in Guard brigades in their 1 year 
when they're not deploying?
    General Odierno. So we have actually, over the last several 
years, our percentage of the budget that we're spending on the 
Guard has gone up, and it's because we understand that we have 
a challenge in sustaining the readiness levels. So what we're 
trying to do is we have a cycle, a sustainable readiness cycle 
that we're in the process of developing that will help us to 
sustain a higher level, or at least try to sustain an 
appropriate level of readiness in the Guard. But there are 
challenges. I would not be honest with you if I didn't tell you 
there are challenges with that because of the budget that we 
have, because we relied a lot on our OCO budget to sustain a 
higher level of readiness in our Guard.
    So what we're trying to do is take portions of the Guard 
and invest in them, and then we adjust it year to year. So, for 
example, as you mentioned, this year we gave more money to the 
Vermont National Guard, the 86th, to prepare for their 
rotation, and then go to the rotation. Now they are available 
if we need them. So if we have something that comes up, we will 
now use them over the next year or two, and we then provide 
them funds to try to sustain that after they come out of the 
rotation.
    Senator Leahy. And you were very forthright and candid 
about these problems, and I agreed with you on the problems on 
the budget when you and I met privately. I just would like to 
make sure that, whether it's the Vermont Guard or any other 
Guard, once they've gone through that training to get that 
degree of readiness, that we'd be able to utilize it in other 
things. None of us are saying let's go to war somewhere so we 
can utilize it, but that they'd be utilized in areas where they 
could be helpful to you and the Army.
    I don't think Americans have an interest in becoming 
involved in another long war like Iraq or Afghanistan or 
Vietnam, but if assumptions about the duration of future 
conflict are again wrong, what additional risk would a total 
Army of 980,000 soldiers incur, and what strain would they have 
with a Reserve of just about half million soldiers?
    General Odierno. If I could just comment, Senator. At the 
height of the wars in Iraq and Afghanistan, we had over 200,000 
National Guard and Reservists on full-time active duty. So 
although the Active Duty was 500,000, we actually had almost 
775,000 actually full-time Active Duty in order to meet the 
requirements.
    So the assumptions that we've made are that our wars will 
be short duration and we will not conduct Phase 4 operations, 
which is a follow-up to any wartime, and I believe the risk is 
there. If the assumption is about 6 months to a year, frankly, 
if we get into a conflict, they last longer than that. So that 
will put a significant strain on our military, a significant 
strain on our Reserve and National Guard forces, because they 
provide the depth in order for us to sustain this over a long 
period of time, and I believe that we will be challenged to 
meet that at a 980,000 end strength if those assumptions are 
wrong.
    Senator Cochran. The time of the Senator has expired.
    Senator Leahy. I have questions that I'll submit to the 
record for the Secretary on Apache helicopters. I would like an 
answer on that.
    Senator Cochran. Without objection, the request is granted.
    The Senator from Kansas, Mr. Moran.
    Senator Moran. Mr. Chairman, thank you very much.
    Mr. Secretary, General, thank you for joining us.
    Mr. Secretary, I appreciate your comments with regard to 
sequestration, the Budget Control Act. I didn't vote for the 
Budget Control Act for a number of reasons. The two primarily 
of importance today is a belief that across-the-board cuts 
don't establish priorities. It suggests that every program has 
equal value and that therefore they all should be treated the 
same, and in my view we should spend more money on some things, 
spend less money on some things, perhaps spend no money on 
others, and to defer to an across-the-board cut in my view 
demonstrates an irresponsibility on our part.
    Secondly, I think the primary function and responsibility 
of the Federal Government is to defend our Nation, and defense 
cuts, while it was described as half the cuts coming from 
defense and half the cuts coming from domestic spending, the 
outcome is something significantly different from that, and I 
continue to pledge my efforts to work with my colleagues, many 
of them in this room today, as we try to find a solution.
    You indicate that words are no longer sufficient, so I'm 
sorry that mine are just words at the moment, but I can tell 
you, Mr. Secretary, that many of us are actively pursuing a 
legislative fix to the issue of sequestration and the Budget 
Control Act, and I hope that we are successful for the sake of 
the defense of our Nation. I'm sorry that you have the 
difficult responsibilities the two of you have should we fail 
in that regard, but we want to give you the flexibility to make 
decisions that are based upon the best interests of defending 
our country. So, thank you in that regard for your service, and 
we look forward to working with you.
    Mr. Secretary, I've asked for an appointment to see you. I 
hope that at some point in time we can accomplish that. I'm a 
new member of this subcommittee and I'd like to utilize your 
expertise to find out how I can do my job well based upon your 
experiences in the House and now as the Secretary.
    Secretary McHugh. I absolutely commit to that meeting. I 
wasn't aware of that, but I look forward to it at your 
convenience. Thank you for your vote, some of that old House of 
Representatives wisdom no doubt.

                               FORT RILEY

    Senator Moran. When I was in the House, I despised the 
Senate. When I'm in the Senate, we despise the House. We ought 
to find the best of both bodies.
    Secretary McHugh. And some despise--no, I won't say that.
    Senator Moran. I'm not sure I need your advice, Mr. 
Secretary.
    You wouldn't be surprised for me to highlight a topic at 
Fort Riley, Kansas in our conversation this morning. Fort Riley 
is the home of the Army's 1st Infantry Division, known as the 
Big Red One, centered between Junction City and Manhattan, 
Kansas. We had a recent visit by a brigadier general, General 
Cloutier, part of the listening tour across the country. I 
thought that the General was very observant and very 
appropriate in the way he conducted himself in listening to 
Kansans, as well as viewing the great attributes that Fort 
Riley offers the Army and the country.
    A couple of things that were said that day that I want to 
highlight to you, that Fort Riley is often overlooked at the 
Pentagon. Not everyone has served there, and it has great 
qualities that sometimes are not known by those here in 
Washington, DC.
    One of the things that happened just yesterday that I 
wanted to highlight for you, Kansas became the first State ever 
to receive Statewide certification of authorization by the FAA 
(Federal Aviation Administration) for Statewide use of drones 
or unmanned aerial vehicles (UAVs), and highlight to you that 
there are 100,000 acres of Fort Riley but 35,000 acres of Guard 
property, both land and air, now available to the Army, in part 
for purposes of unmanned aerial vehicle training, again 
something that is brand new to the ability to train and utilize 
that new mechanism by which we can hopefully win many wars 
without significant loss of life.
    I was at Fort Riley on Saturday, saw the new Irwin Army 
Hospital. One of the things that was said at the listening post 
was how much infrastructure investment has occurred at Fort 
Riley, $1.8 billion, including a new hospital to open this year 
of nearly $350 million.

                     FUTURE AND STRENGTH REDUCTION

    Here's the question I want to highlight for you and get 
your thoughts on today, you or General Odierno. How will the 
future end strength reduction affect the Army's force structure 
and the total number of brigade combat teams?
    Secretary McHugh. If I can start off, I would just note, 
Senator, I can't speak for the Pentagon but Fort Riley is 
certainly well known and deeply appreciated in the Army portion 
of that building, and it is, as it has been, one of our most 
important facilities.
    That really brings us back to the challenge that we're 
facing, the cuts that we're highlighting here and in our other 
hearings. They're not something we chose to do, but it's really 
an inescapable outcome of the budget realities that we're 
facing.
    As to your specific question, we had a height in BCT and 
the active component of about 45 to 47. We're down to 32, with 
a 450K force, and the Active component will be down to 30. And 
as I mentioned in my opening statement, should sequestration 
return in 2016, although it's a back-of-the-envelope 
calculation, we'd be looking at another six BCTs, four of which 
are likely to be Active.
    So just the major fighting components that we have, our 
BCTs, are greatly diminished from recent numbers, and obviously 
it places significant limits on our capacity to go out and do 
other things.
    I'm going to put in what I know will be a very unpopular 
comment here. Another part of the challenge and one of the 
reasons, again as I mentioned in my opening comments, that 
we're looking at having to make reductions across the entire 
structure of the United States Army, every post, camp and 
station should sequestration return, is that we don't have BRAC 
(base realignment and closure) authority.
    I went through three BRACs when I was a member of the 
House, and I know how hard they are, and I lost a base, and it 
was one of the more painful things I've had to deal with in 
many, many years. But absent the authority to truly take out 
excess infrastructure, we have to again distribute the cuts and 
distribute where we're taking forces across the broader range. 
So it ends up that it actually helps more bases to actually 
authorize a BRAC than hurt it.
    Right now, we're paying about $500 million a year, roughly, 
just to maintain empty infrastructure, unused infrastructure. 
That's a $\1/2\ billion that we'd like to put into training and 
into readiness, into family programs, into any number of good 
areas. That's one of the reasons, at about 20 percent excess 
capacity in the Army, just a rough estimate, we think a BRAC 
would help us to alleviate a significant part of the cuts that 
we're all looking at and that, understandably, the folks at 
Fort Riley and just about every other post, camp and station 
are understandably concerned about.
    Senator Cochran. The time of the Senator has expired.
    The Senator from Hawaii, Mr. Schatz.

                           U.S. ARMY PACIFIC

    Senator Schatz. Thank you, Mr. Chairman. Thank you, Ranking 
Member Durbin.
    Thank you, Secretary McHugh and General Odierno. I 
appreciate you being here today.
    I share the concerns of every member of this committee, and 
certainly the two of you, about the effects of sequester on the 
Army. These arbitrary spending limits will force you to make 
hard choices, almost impossible choices, about how to invest in 
the Army's future, assuming risks that would have consequences 
for our soldiers, their families, and the national security 
interests.
    That's why Vice Chairman Durbin and I introduced the 
Sequestration Relief Act, and I know there are other members 
working on other legislative solutions. But our bill provides 
breathing room for both defense and non-defense budgets this 
year, and I hope my colleagues will embrace common-sense 
alternatives. We've got to repeal sequester.
    General Odierno, I'd like to discuss with you the SPEA 
(Supplemental Programmatic Environmental Assessment) and the 
potential consequences for soldiers and civilians at Schofield 
Barracks and at Fort Shafter in Hawaii. The USARPAC (U.S. Army 
Pacific) is doing such incredible work in Hawaii and throughout 
the Asia Pacific region, General Brooks and his excellent 
leadership throughout the region, but also specifically in 
PACOM (U.S. Pacific Command) and on the island of Oahu. He's 
been doing excellent work in positioning Hawaii as we pivot and 
rebalance to the Asia Pacific region.
    So my first question for you, General, is do you believe it 
is the right strategic choice to cut soldiers from Hawaii given 
our priority on the Asia Pacific rebalance?
    General Odierno. Thank you, Senator. As you might know, I 
was just there. I visited recently. So for us it's important 
because of distance and having them available there in Hawaii, 
that they are prepared to conduct operations in the Pacific. So 
they're very valuable for us, both U.S. Army Pacific--we've 
actually invested a new four-star position there, as you 
mentioned, and our forward-deployed combat teams, as well as 
our sustainment and other capabilities there are critical to 
the region.
    So for us, they are an important part of the strategy. It 
is a place that we deem to be incredibly important. But as the 
Secretary said, unfortunately, no matter how important we deem 
it, these cuts based on sequestration will touch everywhere, 
even though they are forces that are so important to our 
national security.
    But as I've said publicly, the forces that are in Hawaii 
are very important to our strategy as we rebalance.

                      PACIFIC PATHWAYS INITIATIVE

    Senator Schatz. Thank you, General.
    I want to talk a little bit about the Pacific Pathways 
initiative, which is designed to develop relationships and 
elevate the Army's commitment to the region. I'm glad to see 
these efforts are backed up with the Army assigning more 
soldiers to PACOM. But obviously, cutting soldiers from 
Schofield and Shafter would walk that back.
    Could you talk a little bit about the Pacific Pathways 
initiative, what you've been able to accomplish, and how 
sequester would threaten that progress?
    General Odierno. So the important part for us is that many 
people don't realize that eight out of the ten largest land 
armies in the world are in the Pacific. The majority of the 
influential services in each one of them are actually Army 
forces. So what Pacific Pathways has allowed us to do is engage 
in a much more systematic and capable way with our force.
    For example, we did an exercise this year where we had 
units deployed to Indonesia, Malaysia, and Japan to do joint 
training with those forces. That enables us to build 
partnerships, to build relationships, and to gain access to 
very important parts of the Pacific region as we look to 
execute our national security and regional security issues. 
It's starting to open doors for us in places like Vietnam, and 
other places as well. So for us, it's essential to our strategy 
of the future.
    If sequestration occurs, it's going to do two things. 
First, it will make it more difficult for us to fund exercises 
and training exercises like Pacific Pathways, and it could 
reduce the volume of capability that we have in order to 
conduct exercises and reach out to these very important 
countries as we try to develop mutual understanding and 
security relationships across the Pacific.

                         ASIA PACIFIC REBALANCE

    Senator Schatz. And just a final question. I have just 
about 40 seconds left. Could you talk about the signals that 
might be sent under the sequester in terms of whether or not 
both our friends and our allies believe that we're really 
committed to the Asia Pacific rebalance in the case that we 
have to pare back our presence in the Pacific?
    General Odierno. I think our ability to deter and compel 
are very important aspects of what we do. I think Admiral 
Locklear is very succinct when he talks about this. Our job in 
the military is to prevent war, and our job is to shape the 
environment that makes it a better place for our country. And I 
believe the potential, if we have to reduce our capacity and 
capabilities there, affects that, our ability to shape a very 
important region for us, which is the Pacific region.
    Senator Schatz. Thank you, General.
    Thank you, Chairman.
    Senator Cochran. Thank you, Senator.
    The time of the Senator has expired.
    The Senator from Missouri, Mr. Blunt.

                           MEDICAL FACILITIES

    Senator Blunt. Thank you, Chairman.
    I wouldn't want to be the only person on the panel that 
didn't mention bases in our State. I know you both visited Fort 
Leonard Wood within the last year or so, and I would suggest 
again that's one of the locations we have, and there are a few 
others, but there's no energy problem, there's no water 
availability problem, there's no environmental problem, there's 
no encroachment problem.
    We did have a hearing, as Senator Moran mentioned, that 
they had of the SPEA (Supplemental Programmatic Environmental 
Assessment) group. The Governor was there. I was there. Senator 
McCaskill, who serves on the Armed Services Committee, was 
there. Congresswoman Hartzler, who serves on Armed Services in 
the House, was there. In addition, there were 2,000 people at 
Nutter Field House, and they had an overflow facility that they 
put people in who could listen to that hearing. You have both 
been there. You know the incredible community support for that 
facility. I'm not sure there's a turnout that compares to that.
    I was told by the person who conducted that session that 
there had been 11,000 emails regarding these various sessions, 
and over 4,000 of them came from the Fort Leonard Wood 
community, and having been there, you wouldn't be surprised by 
that.
    General, there's one question I do have that relates 
specifically to the Fort. I don't think we've told you that 
question was coming, so you may want to take it for the record. 
But the Surgeon General last year, when I was serving on the 
Armed Services Committee, said that the number-one medical 
priority for the military was on MILCON (Military 
Construction), was the hospital at Fort Leonard Wood. It then 
went off the FYDP (Future Years Defense Program) for 2015. It's 
not on the FYDP for 2016. It serves that facility. It also 
serves quite a bit of the community.
    The last upgrade there was about 40 years ago. At least a 
year ago, the Surgeon General for the Army was still saying 
this was the number-one priority for medical facilities. Do you 
want to respond to that?
    General Odierno. I would just say it remains very high on 
our priority list. The bottom line is our MILCON (Military 
Construction) budget. Because of the reduced dollars, we had to 
take risks. So that is one of the areas we have taken risk.
    It is still a priority for us to get an upgraded medical 
facility at Fort Leonard Wood. The problem is we simply don't 
have the dollars to do that right now, and we understand the 
fact that it is in great need. So as the Surgeon General has 
stated, it's clearly her top priority. So as we go forward, we 
had to choose where we took risk, and that was one of the 
places we decided to take risk. Frankly, it's one of those very 
difficult decisions we have to make.
    Secretary McHugh. It was precisely that, as the Chief said, 
Senator. It's a MILCON, a MEDCOM (U.S. Army Medical Command)/
MILCON cut that caused us to have to realign not just that 
facility but a number of others. It's not a place where we 
particularly enjoy taking risk, for obvious reasons. But if you 
talk to some of your colleagues, we have other hospital 
projects that have been similarly delayed that we want to get 
to as soon as we can. But as I know you understand, it's a 
product of money available.
    Senator Blunt. While we're talking about medical, I will 
say something. I know both of you were supportive of, and I've 
been really active in that same hearing. I asked the Surgeon 
General of the Army, based on the NIH (National Institutes of 
Health) view that one out of four adult Americans has a mental 
health issue, diagnosable and almost always treatable, would 
that be different in the military? And her answer was no.
    She said we recruit from the general population. We don't 
have any reason to believe that that same impact is not in the 
military, and whatever we can do to continue to move, as we are 
moving, mental health into the area of all other physical 
health so it's treated the same way, expensed the same way, 
available to dependents and retirees the same way, and I know 
you're both supportive of that.
    Secretary McHugh. We are dedicating significant resources, 
particularly in hiring behavioral health specialists. When I 
first came to this job nearly 6 years ago, our stated 
requirement for those professionals was about 2,300. It's now 
over 5,500. We're about 85 percent of that filled.
    The reason for that growth is that we have begun to 
recognize, as we should, that the need for these kinds of 
providers is absolutely essential. So we've embedded behavioral 
health specialists at the brigade level. We've tried to get the 
care delivery system further disposed out through our ranks, 
and I would say as well another part of it is the de-
stigmatizing, the reaching out for help. There is a certain 
attitude in the military that you just pull yourself up by the 
bootstraps, number one. And number two, if you do get help, 
somehow that will hurt your career.
    We have worked hard to make it easier for soldiers to reach 
out for mental healthcare, and if you look at the number of 
help-seeking activities that have occurred, they have grown 
astronomically, as they should. That's what we want. I think 
we're getting there, but it's been a long fight, and it will be 
a long fight yet to go given, as the Surgeon General and you 
noted in your data, the very widespread nature of these 
challenges.
    Senator Cochran. The Chair has to advise the Senator that 
his time has expired.
    Senator Blunt. Thank you, Chairman.
    Senator Cochran. The Senator from Washington, Ms. Murray.

                         ASIA PACIFIC REBALANCE

    Senator Murray. Thank you very much, Mr. Chairman.
    Mr. Secretary, General, it's good to see you. Thank you for 
being here.
    General Odierno, during the brigade combat team realignment 
a few years ago, the Army cut units from bases across the 
country. And if the Army is forced into further reductions, I 
want to be sure that it will be a well-balanced, strategy-based 
approach. The units and bases in my home State of Washington 
are really critical to our national security strategy, 
including the rebalance to Asia and the threat of instability 
on the Korean Peninsula.
    We need more investments in Washington State, certainly not 
more cuts, and I just wanted to say I really hope that you will 
really protect those critical assets.
    General Odierno. Ma'am, Senator, as we move forward, we'll 
take into consideration not only strategy. We'll take and 
consider the mix of heavy, Stryker, light. We've got to make 
sure we sustain the right mix of capabilities, and that's part 
of the assessment that we'll do. It will be based on strategy 
and need, and that will be the underlying, the most important 
factor as we look at where we need to go.

                             SEQUESTRATION

    Senator Murray. Okay. And I also wanted to thank you for 
your focus on helping soldiers transition successfully when 
they leave the Army. And I especially want to thank you for 
standing up the Soldier for Life Office and all the focus 
you've brought to improving the transition programming.
    If the Army is forced to make serious cuts to force 
structure under sequestration, I wanted to ask you how will the 
Army make sure those critical transition programs have the 
resources to support the number of soldiers that will be 
separated?
    General Odierno. There's two things that we've learned. 
First, we are absolutely dedicated to this because, as you 
mentioned, the Soldier for Life program, we want those who 
leave to understand that they gained from being in the Army, 
and that helps us in the long run.
    Secondly, it's a combination of our resources and using the 
private sector resources that are out there. What we have found 
is there are so many organizations that want to work with us. 
We've had some great programs, as you know, out of Fort Lewis 
that have helped us to do this. So we want to invest in where 
we use our resources to help us find the private resources that 
can help us to transition. You have my word that we will 
continue to dedicate ourselves to that as we transition.

                       JOINT BASE LEWIS-MC CHORD

    Senator Murray. Okay. I think that everybody wants to 
participate in that, and we want to make sure that that's 
ongoing.
    And finally, I know you absolutely share my view that 
soldiers deploying in harm's way should have what they need to 
get their jobs done safely and effectively. My office has been 
working with the Army for the last several months to speed the 
consideration of an operational needs statement for a unit from 
Joint Base Lewis-McChord. I understand the need to carefully 
consider these requests, but this unit is already deployed, and 
we're told this process is still going to take a few more 
months, and I'm concerned about how long this is taking.
    I really believe, General, that this issue needs your 
personal attention. Can you give me your commitment on that?
    General Odierno. It's been approved.
    Senator Murray. It's been approved. When will they be 
notified?
    General Odierno. They should have been notified already, in 
the last couple of days.
    Senator Murray. Okay. I appreciate it.
    General Odierno. This process we've been working through, 
it's a process that took a little bit too long.
    Senator Murray. Yes.
    General Odierno. But it has been approved.
    Senator Murray. Okay. Thank you very much. I appreciate 
that.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from South Carolina.

                             SEQUESTRATION

    Senator Graham. Thank you very much, Mr. Chairman.
    Thank you both.
    We have Army bases, Fort Jackson in South Carolina, and 
we're very proud of what Fort Jackson does for the Army. So 
rather than asking you about Fort Jackson, I think, Mr. 
Secretary, you expressed very well that if the Army continues 
to have to implement sequestration numbers, the Army is going 
to be much smaller, and if you don't have a BRAC, we're really 
putting the Army in a bad spot.
    Secretary McHugh. Certainly a much more difficult spot.
    Senator Graham. So at the end of the day, as much as we all 
love our bases, we're going to have to address this problem. 
And if we want to insist upon sequestration, then we'd better 
be willing to go back home and tell people you can't get there 
from here, and everybody that's open today is not going to 
survive. Does that make sense?
    Secretary McHugh. It does.
    Senator Graham. Okay.
    General Odierno, how many years have you been deployed 
since 9/11?
    General Odierno. Approximately 6 years, sir.
    Senator Graham. Your son lost his arm. Is that correct?
    General Odierno. Yes, sir.
    Senator Graham. You're a pretty typical military family in 
that regard, aren't you?
    General Odierno. Yes, sir.
    Senator Graham. You're a four-star general, but there are 
other people under your command who have been deployed for 6 
years or longer. Is that correct?
    General Odierno. Yes, sir.
    Senator Graham. And they've lost friends and been injured 
themselves. Would you say this has been a long war?
    General Odierno. Yes, sir.
    Senator Graham. Do you think the war is remotely over?
    General Odierno. No, sir.
    Senator Graham. If we are smart, once we clear ISIL out of 
Iraq, if we can ever do that and not give the place to Iran, 
would you recommend a residual force to maintain the gains 
we've----
    General Odierno. I think one of the things that we have not 
done a very good job with is consolidating our gains, and I 
think it's important that we come up with a way to do that.
    Senator Graham. Well, General, this is an important moment 
because we've got to figure out what kind of military needs 
we're going to have. So, from a commander's point of view, it 
would be very wise to leave a residual force behind this time 
so the same thing doesn't happen again.
    General Odierno. I would say we should take it under real 
consideration. I think it does make a difference.
    Senator Graham. Do you agree that if you don't leave any 
American forces behind, it's likely to happen again?
    General Odierno. I think what it does, it keeps us engaged 
and reduces the possibility of it happening.
    Senator Graham. Yes, and that makes us safer.
    General Odierno. It does, absolutely.

                  ISLAMIC STATE OF IRAQ AND THE LEVANT

    Senator Graham. We're at risk by ISIL, right? ISIL is just 
not a regional problem. It's a threat to the homeland?
    General Odierno. It is growing. It is growing across the 
region. I think over time, it's going to become a threat 
regionally and internationally.
    Senator Graham. Gotcha. Would you recommend that we look at 
our force structure in Afghanistan based on conditions, not 
just an arbitrary date?
    General Odierno. I always believe we should do a 
conditions-based strategy.
    Senator Graham. If we can find a force to go in and destroy 
ISIL in Syria, if we can ever find one, would we be smart to 
make sure Syria doesn't go bad again?
    General Odierno. That would be in our best interest, 
Senator.
    Senator Graham. Okay. Would you agree with me, when you 
look down the road, the Army is going to be fighting terrorism 
over there for a long time to come, if we're smart?
    General Odierno. I think we'll be fighting terrorism, and I 
also think there will be some other regional instability that 
we're going to have to deal with.
    Senator Graham. Okay. So is this a generational struggle?
    General Odierno. I think it's--yes, I do. I absolutely 
agree with that.
    Senator Graham. So from a planning point of view, the 
likelihood of us being deployed forward to deal with what is a 
growing threat is high.
    General Odierno. Yes.
    Senator Graham. And there are other problems just beyond 
terrorist organizations. Is that correct?
    General Odierno. That's correct, Senator.
    Senator Graham. We want to have a deterrent effect against 
rogue nations.
    General Odierno. That's correct.

                             SEQUESTRATION

    Senator Graham. If that's the case, then why would we even 
consider going down the sequestration road? Can you give me a 
good reason why we would do that?
    General Odierno. No, I cannot. In fact, if I could just 
make a quick comment on what you just said, one of the things 
that we're really having a problem with, as you bring combatant 
commanders in to testify, they're going to tell you that they 
need more forward station capability.
    Senator Graham. Which protects us.
    General Odierno. Which protects us. And the problem we have 
is as we reduce our force structure, it makes it more and more 
difficult for us to provide forward stationed forces, which 
puts us more at risk. That's one of the problems we're having.
    Senator Graham. Obviously, it makes it more difficult to 
modernize.
    General Odierno. Right.
    Senator Graham. Are you looking for a fair fight in the 
future with the enemy?
    General Odierno. No, sir.
    Senator Graham. I'm looking for an overwhelming, decisive 
advantage over the enemy, and that will be lost if we don't 
modernize our forces, because wars change.
    In terms of morale, how is morale given the uncertain 
nature of the budget?
    General Odierno. So, for the Army, I would say as I go 
around and I see our soldiers and they're preparing, they 
inspire me. They continue to do what they're asked. That said, 
there's a lot of pressure on our soldiers right now, especially 
in the Army, because of the massive reductions that we've 
already gone through and the massive reductions that we're 
facing. There's uncertainty. And then on top of that, there's 
lots of discussion about pay and benefits. There's lots of 
discussion about retirement. There's lots of discussion about 
other things. And all of this is putting pressure on them and 
their families.
    And so although we have not seen the breaking point yet, I 
worry when that will occur in the future.
    Senator Graham. One quick question. I know my time is up.
    Senator Cochran. Your time has expired.
    Senator Graham. Could I just have 30 seconds, Chairman?
    Senator Cochran. The Senator from South Carolina.
    Senator Graham. Thank you.
    Great Britain is having an argument among itself about how 
much to spend on their forces. Is that correct?
    General Odierno. That is correct.
    Senator Graham. Is it a fair statement that the free world 
is reducing its military capability across the board as radical 
Islam and rogue nations increase their capability?
    General Odierno. My assessment is the majority of our 
allies are in the process of reducing their capabilities today 
at a significant rate.
    Senator Cochran. The Senator from Alaska, Ms. Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                     RUSSIAN ACTIVITY IN THE ARCTIC

    General, Secretary, welcome. Thank you for all that you do, 
your leadership.
    I want to move from questions about the hot spots to colder 
places and hopefully keeping colder places from becoming hot 
spots.
    Last week in testimony before the Senate Armed Services 
Committee, Chairman Dempsey made mention that the Russians are 
standing up six new brigades, four of them to be placed in the 
Arctic. The Secretary followed up that the Russians are, in 
fact, very active in the Arctic. That prompted a letter to both 
of you from the full Alaska delegation, suggesting that instead 
of drawing down the Army presence in Alaska, which was the 
subject of the listening sessions up there last week, that 
perhaps the Army should be doing exactly the opposite; in fact, 
growing its presence in Alaska.
    So to you, General, can you expand on the statement that 
the Chairman made last week, and the Secretary, about Russian 
activity in the Arctic? What is Mr. Putin up to here?
    General Odierno. So we have seen over the last several 
years an obviously increased interest in the Russians in the 
Arctic. There are clear indications, as the Chairman mentioned, 
that they are increasing their presence and building bases so 
in the future they will be able to increase their presence and 
have an impact in the Arctic region, and it's one that clearly 
has gotten our attention.
    Senator Murkowski. And given that it has gotten your 
attention, what are you doing to adjust your plans within Army 
going forward?
    General Odierno. So first off, what I'm waiting for is we 
need a strategy of how we're going to deal with the Arctic from 
NORTHCOM (Northern Command), who is responsible for that. And 
as they develop that strategy, we will then work to see what 
our contributions are to that strategy. I have talked to the 
commander of Army Alaska who has some thoughts on this. So we 
have taken that from him and we are looking at that internally 
to the Army now to see what that means to us in the future. So 
we are taking a look at that.
    But we have to rely on NORTHCOM in order to develop a 
strategy that would allow us, then, to understand what our 
commitments need to be.
    Senator Murkowski. We've had discussion over the past 
several years, talking about whether it's prudent to reduce 
Army's presence given the pivot to the Pacific, the realignment 
there, and you've responded several times that the Army didn't 
view it as prudent to reduce its presence in the Pacific 
because Alaska sits at the top of the Pacific there.
    So I'm taking from our conversation here this morning that 
you would agree that it is not wise for a change in view or 
change in perspective as it relates to the Pacific and Alaska's 
role.
    General Odierno. Senator, I have not. I believe it's an 
important piece of what we do in the Pacific. That's the 
problem we have now. There's lots of areas I could make that 
same comment, and that's the problem. We now have to make 
difficult decisions that impact our security, and that's 
somewhat distressing, frankly.

                       SMALL UNIT SUPPORT VEHICLE

    Senator Murkowski. Distressing for all of us.
    I understand that you were back home in Alaska, my home, in 
Alaska in February to observe our U.S. Army Alaska troops in 
training. You got to go out to Black Rapids. I think they 
treated you well. I'm told that the weather was about 40 below 
zero, which is a good sense of what it means to be Army strong, 
Arctic tough, because it really does develop a toughness out 
there.
    But just in terms of our preparation as an Army in dealing 
with interests in high altitudes and cold places, you've got 
some pretty exceptional training grounds right there. But I 
think we also need to recognize that perhaps we have some of 
the requirements, the assets that are perhaps not sufficient or 
not ready for Arctic climate, specifically the SUSV (Small Unit 
Support Vehicle). Can you speak very quickly to the Arctic 
focus here?
    General Odierno. So, first off, the ability to conduct 
training and the necessity for us to be able to have that 
capability is important. So I would say, first of all, the 
overall training is unmatched anywhere. I also believe we can 
actually use it for other things beyond just Arctic training. I 
think the capability, the training areas up there could help 
the Army in many different environments because of the terrain, 
because of the elevation, and because of other things. So I 
think it has broader application as well, and I've asked us to 
take a look at the broader application in how we can use that.
    In terms of SUSV, it is problematic. It is a program, as 
you know, we have not invested in. We're maintaining what we 
have, but we have not invested in any improvements. I think 
that's something that as we look to the future, we have to take 
a look at how we want to operate in a very cold weather 
environment, what our capabilities are.
    The problem we have is we simply don't have the budget 
right now and the modernization capability to do it as it falls 
on our current priority list. That does not mean we don't think 
it's essential or important. It's just not high enough right 
now for us to invest in that.
    Senator Murkowski. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Senator Shelby has asked for recognition.
    Senator Shelby. Thank you.
    Secretary McHugh, we see from our testimony and our basic 
knowledge of what's going on in the world, you do and the 
General does, we've discussed here. As we reduce our forces 
because of sequestration and other things and we're living in a 
dangerous world with a resurgent Russia, a looming threat from 
China down the road, turmoil in the Middle East which is 
probably going to be with us a long time, it just defies logic 
that we would not fund our military, our Army, our Navy, our 
Marines, our Air Force, realizing the threat now and the threat 
in the future to the security of this country. That's been well 
said. Do you agree with that?
    Secretary McHugh. Absolutely, Senator. I want to 
acknowledge, however, the challenge that lies before all of 
you. If sequestration were easy to fix, I believe with all my 
heart you would have fixed it already. The political challenge, 
small P, of getting 435 members of the House and 100 members of 
the Senate to agree, at least a majority of each, on a way 
forward and to get it to the President, who hopefully will sign 
it, is, I understand, a high mountain.
    But the challenges that you describe, Senator, and that 
many of your colleagues have spoken about on this day are 
absolutely real. And again, as the Chief noted in his opening 
comments, if we go to sequestration with 420,000 in the active 
component, we cannot meet the Defense Strategic Guidance, which 
I think is a very dangerous place to put this country.
    Senator Shelby. Do you believe it's incumbent upon you and 
the General, as well as us, the Members of the Congress, and 
the President, to tell the American people the truth of the 
threats in the world over and over? Because we can't fund 
defense on the cheap and expect to be the number-one military 
power in the world and protect our interests in the world, as I 
see it. Do you disagree?
    Secretary McHugh. I fully agree with what you say, and 
that's why we appreciate opportunities such as this.
    Senator Shelby. Absolutely.
    Secretary McHugh. Because it gives us the very important 
chance, through your questions, to put a fine point on exactly 
the risks that we'll be taking and to better describe them, 
because most Americans in their lives, thankfully, have other 
things that gain their attention rather than the threats that 
all of you deal with, and obviously we're dealing with as well. 
We need to help them get a better picture of that.

                           SUPERSONIC WEAPONS

    Senator Shelby. Secretary McHugh, moving into some 
specifics here, reports indicate that China completed a third 
flight test of its hypersonic weapon in December of last year. 
Shouldn't we complete a third flight test of our own supersonic 
weapon? And what do you expect to be the timeline, if there is 
one, and I hope it would be, for operational deployment of the 
advanced hypersonic weapon, should the need arise? And how 
important ultimately is the advanced hypersonic weapon to 
deterring this hypersonic weapons threat from hostile nations, 
or would-be hostile nations like China and Russia, and wherever 
else?
    Secretary McHugh. As you noted very accurately, Senator, 
our potential adversaries continue to show great interest in 
and develop that hyper technology. We believe that we have to 
advance a similar effort. As I know you're aware, the Army did 
a test in I believe it was 2014 to test the current level of 
technology of our hypersonic weapons platforms. That was 
successful. We did have some launch problems in a scheduled 
follow-up test. My understanding is now the Defense Department 
has scheduled a Navy-led test. I believe it's in fiscal year 
2017.
    And as it is with all things, particularly in these kinds 
of high-tech, S&T-centric developments, funding is absolutely 
essential.

                              FORT RUCKER

    Senator Shelby. I'm going to shift to another area, to Fort 
Rucker, Alabama. It's my understanding that the Army has 
conducted or is conducting a feasibility analysis of moving two 
warrant officer courses from Fort Rucker to Fort Leavenworth. 
According to the data--and I don't have all the data--that I've 
received, there would be no savings there.
    Do you want to speak to that, or can you furnish the 
committee the analysis you're coming up with where we can look 
at that?
    Secretary McHugh. I can certainly do both. You're correct, 
we are conducting a cost benefit analysis (CBA) of our warrant 
officer training program writ large. Part of that would be the 
efforts and the training aspects that you've mentioned. That 
CBA has not yet been finished. I believe we have, through 
letters, made a commitment to you, to come and to brief you on 
the results of that analysis.
    Senator Shelby. Absolutely.
    Secretary McHugh. But the entire initiative is progressing. 
I don't want to mislead you or other members of the committee, 
but we have not yet completed the study that you mentioned.
    Senator Shelby. You mentioned some excess capacity earlier 
in our forces and probably a need down the road for a BRAC, 
which none of us particularly like and often fear.
    Secretary McHugh. I understand.
    Senator Shelby. But I was thinking about Fort Rucker as the 
helicopter training, basic training for the Army and the Air 
Force, and so many other things. But it's not the basic 
training for the Navy and the Marines. We've been down that 
road before. But haven't there been some studies that would 
show great savings if we did that, if we did the basic training 
at Fort Rucker of all the military? I'm not talking about 
specific, the Marine's specific missions, and the Navy has. I'm 
talking about the basics.
    Do you want to address that, or do you want the General to?
    Secretary McHugh. I'll defer to General Odierno. Of course, 
that would be a Defense Department-level decision.
    Senator Shelby. There's some inner-service rivalry there. I 
understand that. And we probably can't solve it here today. But 
it's something, if we're starting to say we need to save money, 
and we do, and we've got to have money to have the number-one 
security forces in the world, we've got to look everywhere. 
But, go ahead.

                        WARRANT OFFICER TRAINING

    General Odierno. Senator, I'm not aware of a study we've 
done on this, but certainly it's something we can take a look 
at, and I think it's worth taking a look at, working with the 
other services.
    If I can just comment on the warrant officer, I am not 
happy with our warrant officer training. I just want to make 
sure you understand that. And it's not just in Fort Rucker. In 
very general terms, I believe we have to do much better in 
training our new warrant officers and our senior warrant 
officers, and we are in the process of revamping this program 
so it is a combination of cost benefit analysis as well as 
providing a place where we can do the right training with the 
right access to our educational institutions.
    So, we owe you an answer on that, but it's something that's 
very important to me, sir.
    Senator Shelby. Well, it's very important to have the best 
training. It's also important to have the best savings. Both, 
right?
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from Missouri.
    Senator Moran. From Kansas, Mr. Chairman.
    Senator Cochran. From Kansas.
    Senator Moran. Thank you very much. Although I would follow 
up on the comments from the Senator from Missouri, the 
listening tour that involved General Cloutier in Kansas was 
very well received. The general indicated that the Army knew 
the square footage of Fort Riley, knew he had all the facts and 
figures, but came to learn about the heart of Fort Riley, and 
4,300 Kansans showed up at Fort Riley, at Junction City, 
Kansas, to demonstrate their love and care, compassion for the 
soldiers who serve at Fort Riley, who are deployed from Fort 
Riley, and their families.
    I wanted to compliment the Army. I was, as I said earlier, 
at Irwin Army Hospital on Saturday last, and a major 
improvement in the facilities, a great opportunity for us to 
care for soldiers and their families. We understand that we are 
one of a few that have that new facility in the works, and we 
appreciate the Army's decision to proceed with that hospital.
    I also want to ask a couple of questions, perhaps for the 
record. But I wanted to ask you, General, the division 
headquarters from Fort Riley is now in Iraq. General Funk is 
leading our operations in Iraq. We are expecting his return to 
Kansas, to Fort Riley, later this year. We would invite and 
welcome you both to be there to welcome General Funk and his 
mission, the division headquarters, home.

                  ISLAMIC STATE OF IRAQ AND THE LEVANT

    What do you see happening next in Iraq and the war on ISIL?
    General Odierno. This is something we see going on for some 
time. The 1st Infantry Division will be replaced by another 
headquarters that will go in and do that. We have not yet 
announced that, but we will soon. So I can see this continuing 
for some time. The President has said 3 years. I would say it 
will be that minimally, and we'll have to look to see. We'll go 
back to the President if we need longer than that. But I see 
this going on for some time.
    The other comment I would make, by the way, and you 
mentioned UAVs earlier, we just made the first appointment of 
our Gray Eagle UAV that came out of the 1st Infantry Division, 
and they are now in Kuwait, and they will stand up and really 
conduct the first combat operations of our Gray Eagle 
capability under Division control. That's a very important step 
for us in our investment, and it goes back to the comments you 
made about the ability to train with that at home station is 
very valuable to us. It's going to be an integral part of our 
ability to conduct future warfare. So I think this is a very 
important milestone for us as they are now deployed in Kuwait 
to support this operation.
    Senator Moran. General, thank you for saying that. I wasn't 
very articulate in my comments, but the point I was attempting 
to make was that while there are 100,000 acres at Fort Riley, 
there's another 35,000 acres at Great Plains Training Center 
located near Salina, home of Kansas State University--Salina, 
and Kansas State University has received the Certificate of 
Authorization from the FAA this week for the use of unmanned 
systems statewide. And that we see in Kansas as a significant 
development not only militarily but commercially. It's a 
significant development.
    Let me ask the Secretary in the time that I have left, Mr. 
Secretary, perhaps these are questions for the record, but for 
each of the seven division-level Army posts, could you tell me, 
give me a cost comparison on the following factors and describe 
how they might inform stationing recommendations and decisions?
    BCTs to sustain a division headquarters and a two-brigade 
combat team set to be housed and maintained at readiness level 
as part of the Army force generational model?
    Environmental; what are the installation environmental 
management costs?
    What are the operations and maintenance costs?
    And what's the population density, and how does the Army 
consider potential impact on future growth when making 
stationing decisions?
    So I'm looking for the comparison in costs among those 
seven installations.
    Mr. Secretary, if it would be helpful, I'll just submit 
that question to you in writing.
    Secretary McHugh. I wish I had the command of knowledge 
that that very insightful question requires, but I don't.
    Senator Moran. I wish I had your political skill in 
responding.
    Secretary McHugh. I have a lot of different ways to say I 
don't know, but we'll certainly do our best to get that 
information to you.
    Senator Moran. Thank you very much, and I look forward to 
us having a meeting sometime.
    Secretary McHugh. I, too.
    Senator Moran. Thank you.
    Thank you, General.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. If there are no other questions for the 
panel, we want to express our appreciation for your cooperation 
and your attendance here today and your willingness to respond 
to our questions. We thank you for not only your testimony but 
your distinguished service to our nation as the leaders and 
commanders of our armed forces.
    We're very grateful for your distinguished service, and we 
look forward to a continuing dialogue throughout the fiscal 
year 2016 appropriations process. Senators may submit 
additional written questions, and we would request that you 
respond to those when we submit them.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. John M. McHugh and
                       General Raymond T. Odierno
               Question Submitted by Senator Thad Cochran
       deactivation of national guard brigade combat teams (bct)
    Question. During the Army's 2015 budget hearings this office 
submitted questions for the record inquiring about the prudence of 
imposing drastic force structure cuts to ground units in the Army 
National Guard--a particularly relevant topic given the numerous crises 
occurring throughout the world today. As an example, Mississippi is 
home to the 155th Armored Brigade Combat Team-- a combat hardened unit 
that ranks as one of the most capable and technologically modernized 
brigades within the National Guard having recently fielded the new M1A2 
SEP Abrams Main Battle Tank, the new M2A3 Bradley Fighting Vehicle, and 
upgraded to the latest digital communication suite of equipment. As 
part of total force reductions directed by the Army, the 155th is one 
of the BCTs identified for elimination. Why, given our current budget 
constraints, is there a push to disassemble National Guard units that 
we have invested substantial resources in--units that cost 
significantly less than their Active component counterparts to 
maintain?
    Answer. To meet the reductions imposed by the Budget Control Act 
and the resulting sequester and achieve the right balance among the 
three components, we looked to the Secretary of Defense's guidance that 
we not retain structure at the expense of readiness. We also considered 
Combatant Commander warplan requirements, operational commitments, 
future requirements, costs, and necessary readiness levels. 
Additionally, we directed that initial cuts should come 
disproportionately from the Active Component (AC) before the Army 
National Guard (ARNG) or United States Army Reserve (USAR). The result 
is a plan that recognizes the unique attributes, responsibilities, and 
complementary nature of the three Army components, while ensuring the 
ARNG and USAR are maintained as an operational, and not a strategic, 
reserve. The Army has yet to formally announce which formations in the 
ARNG will be reduced. The timeline for the ARNG force reductions 
mirrors the total Army's under this budget submission. If the AC 
reduces 40 thousand soldiers from 490 thousand to 450 thousand by 
fiscal year 2017, the ARNG will reduce 15 thousand from 350 thousand to 
335 thousand by fiscal year 2017. Also, if sequestration level funding 
remains in place and the Active Army reduces another 30 thousand 
Soldiers from 450 thousand to 420 thousand, the ARNG will reduce 
another 20 thousand Soldiers from 335 thousand to 315 thousand by the 
end of fiscal year 2019. Currently the ARNG will reduce one BCT in both 
fiscal years 2016 and 2017 and two more, one in fiscal year 2018 and 
fiscal year 2019, if sequestration remains for a total of four. All 
Army reductions (AC, ARNG and USAR) are considered through the lens of 
the total force and a collaborative approach. We work with the ARNG and 
USAR on all force structure decisions with the final decision resting 
with myself.
    We are currently conducting Listening Sessions at the Army posts 
and communities that may be affected by the drawdown. Once completed, 
we will evaluate the comments and make a decision on where to reduce in 
the future. An announcement is not expected before the end of June 
2015.
                                 ______
                                 
             Question Submitted by Senator Lamar Alexander
    Question. The Modular Handgun System (MHS) concept, which began in 
2003, has been plagued by uncertainty and delays. Yet the Army appears 
to be moving forward with a plan to develop a new handgun during a 
period of significant defense-spending reductions.
    Given our current fiscal constraints, why is now the appropriate 
time to pursue a completely new handgun program that has been delayed 
for 12 years?
    Is there a safety concern with the current M9 or M11 handguns?
    What other options has the Army considered that would be more cost-
effective than pursuing the MHS?
    Has the Army evaluated the cost of changing ammunition from a 9mm 
round to something else? If so, what are the estimated costs associated 
with this decision.
    What are the estimated costs of replacing holsters, accessories and 
other add-ons that are currently used for the M9 and M11?
    Please provide the data on the maintenance and replacement rates 
for the M9 and M11 that justify the need for a new program.
    Answer. The competition for the Modular Handgun System will take 
advantage of the best technologies industry has to offer and will 
provide the Army with an improved, cost effective weapon. In today's 
competitive and fiscally constrained environment, full and open 
competition is the most effective strategy to control cost. 
Additionally, upgrading the existing M9 inventory would cost nearly as 
much as replacing them, as M9s are becoming uneconomical to repair; 
therefore, the Army's competition for a new modular handgun system will 
leverage the significant improvements that industry has made over the 
past few decades and select a commercial/non-development solution.
    No, there are no safety concerns with the currently fielded M9 and 
M11 handguns.
    The Army has procured the M9 as the handgun of choice for the past 
several decades. While it performed admirably, conducting a competition 
will enable the Army to take advantage of the best industry has to 
offer while reducing costs. Prior to the start of this program, the 
Army considered multiple options, including conducting a competition 
for a new M9. However, none of these options met the Army's 
requirements for a handgun. The MHS program is cost-effective and will 
leverage the robust commercial handgun industry to provide the 
Warfighter with increased lethality, modularity, and ergonomics at a 
cost equal to or less than refurbishing an M9.
    The Army is taking a non-caliber specific approach in seeking the 
``Best Value'' solution through full and open competition among mature 
commercial designs in the procurement of a new handgun system. As part 
of this analysis, the Army has considered the cost of changing 
ammunition in the development of the MHS Strategy. Currently, the Army 
purchases ammunition from commercial manufacturers. It is currently 
estimated that changing from the current 9mm round to something larger 
would result in a negligible cost increase of up to $0.06 per round; 
however, the Army will evaluate the proposals from vendors on the 
overall system cost and performance.
    Handgun accessories are expendable and durable items that are 
continuously procured in sustainment to support the M9. The MHS 
accessories will be procured along with the handgun as a system in the 
replacement of the M9. The total estimated cost for all accessory items 
that will transition from support of the M9 to support the MHS 
acquisition objective is $89 million.
    The overhaul rate for M9s varies greatly from year to year. The 
range spans from 2,000 to over 6,000 per year. The current cost of 
overhaul is in excess of $400 per weapon, due to the aging inventory. 
Over half of the M9 weapons frames are excessively worn and damaged and 
must be thrown away during the overhaul process. The high percentage of 
worn out frames is a leading factor why rebuilding the aging system is 
no longer cost effective; however, the need for the new MHS is also 
based on system requirements in the areas of reliability, accuracy, 
terminal effects, and ergonomics that the current M9 does not meet.
                                 ______
                                 
               Question Submitted by Senator Steve Daines
            distributed common ground system--army (dcgs-a)
    Question. As you approach the second increment of the Distributed 
Common Ground System, what is the Army doing to address critical 
capability gaps? Has the Army taken into consideration the opinions of 
its men and women on the ground when evaluating its approach to 
implementing this second increment? Has the Army considered using 
commercially-available programs currently in use by other services that 
would save costs and more efficiently benefit our men and women in 
uniform? What tangible steps has the Army taken to look at ending 
development of pieces of the program that are already commercially 
available today?
    Answer. In response to Soldier feedback, the Army will conduct a 
full and open competition for a new version of the Distributed Common 
Ground System--Army (DCGS-A), Increment 2, in fiscal year 2016. The 
competition will allow the Army to take advantage of commercial 
innovation and incorporate ``best of breed'' technologies into the 
program, addressing capability gaps and improving the interface that 
Soldiers use to access and analyze intelligence data. As the Army 
develops the Increment 2 strategy, we will continue to assess 
capabilities used by other Intelligence Community (IC) organizations 
and agencies. The Army will not spend any additional funding to develop 
the current version of the program. fiscal year 2016 RDT&E funding for 
DCGS-A Increment 1 will be used for integration and testing to sustain 
the capability until Increment 2 is fielded.
                                 ______
                                 
               Question Submitted by Senator Jerry Moran
                  division level post cost comparison
                        military value analysis
    Question. For each of the seven Division-level Army posts, please 
provide a cost comparison on the following factors and describe how 
each might inform stationing recommendations and decisions:
  --To sustain a Division Headquarters and a two-Brigade Combat Team 
        set to be housed and to maintain readiness levels as part of 
        the Army's force generation model?
  --What are the Installation Environmental Management Costs?
  --What are the Operations and Maintenance costs?
  --What is the population density and how does the Army consider the 
        potential impact of future growth when making stationing and 
        basing decisions
    Answer. We do not currently have the data in sufficient detail to 
give you the requested cost comparisons, but we are working to collect 
the data from numerous sources with a goal of providing both you and 
the Committee a detailed and coherent response mid-summer after our 
analysis is complete.
    The Army considers a broad array of criteria when making basing 
decisions about which forces should be aligned with which 
installations. Criteria is based on strategic considerations, 
operational effectiveness, geographic distribution, cost, and the 
ability to meet statutory requirements.
  --Strategic Considerations: Aligns Army Force Structure to the 
        Defense Strategy and Defense Planning Guidance.
  --Operational Considerations: Seeks to maximize training facilities, 
        deployment infrastructure and facilities to support the well-
        being of Soldiers and their Families. Aligns appropriate 
        oversight/leadership by senior Army headquarters for better 
        command and control.
  --Geographic Distribution: Seeks to distribute units in the United 
        States to preserve a broad base of support and linkage to the 
        American people.
  --Cost: Considers the impacts of military personnel, equipment, 
        military construction, and transportation costs.
  --Statutory Requirements: Complies with the provisions of the 
        National Environmental Policy Act (NEPA) as appropriate, 
        including an environmental and socio-economic analysis.
    The Army is currently conducting Listening Sessions at the Army 
posts that may be affected by the drawdown. Once completed, the Army 
will evaluate the comments and make a decision on where to reduce in 
the future. An announcement is not expected before the end of June 
2015.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                             army aviation
    Question. The transfer and remanufacture of all the AH-64 Apaches 
in the National Guard to the Active Component to replace the OH-58D 
Kiowa Warrior as a scout reconnaissance helicopter was the only 
controversial part of the Army's Aviation Restructuring Initiative. We 
have legislated on the Apache transfer, but one thing not well 
discussed is the new role of the Apache as a reconnaissance platform. 
What progress has been made in developing the technology and training 
needed for the mission? Considering the Apache is the best but not an 
ideal fit for the mission by the Army's estimate, how long does the 
Army plan to use it in this role?
    Answer. A 2009 Analysis of Alternatives study to determine and 
classify key capabilities of manned and unmanned platforms to perform 
and satisfy armed reconnaissance helicopter missions identified a 
manned/unmanned mix concept as providing the most cost-effective mix of 
capabilities. The AH-64, teamed with an Unmanned Aircraft System (UAS), 
is the best alternative for the new Armed Aerial Scout (AAS).
    The ARI is the Army's plan--approved by the Secretary of Defense--
to reduce the size of its aviation force structure in response to the 
congressionally mandated spending reductions as a result of the Budget 
Control Act of 2011. The resultant divestment of the OH-58D Kiowa 
Warrior and the cancellation of associated upgrade programs enable the 
re-purposing of $1.8 billion for critical Army aviation modernization 
programs and training. With the reduction in the aviation force and the 
divestiture of the OH-58 fleet, the AH-64 Teamed with UAS employs 
aircraft the Army already owns.
    Although designed as an attack helicopter, AH-64 crews conduct 
attack, reconnaissance, and security operations and have performed 
these combat missions in Iraq and Afghanistan. As a result, we have 
already experienced significant progress in cultivating a scouting 
culture and training the pilots for a shift in the primary role from 
attack to reconnaissance for Apache helicopter battalions. 
Additionally, from fiscal year 2017-2019 approximately 173 OH-58 pilots 
will learn to fly the Apache further mitigating the training gap by 
capitalizing on the experience of these aircrew members.
    Technological advances with unmanned aircraft systems (UAS) and 
communications networks allow manned Apache helicopters to control 
unmanned aircraft payloads, and receive and transmit real-time video. A 
rapid increase in the number of UASs allowed Army aviation to fly more 
than 5 million flight hours in manned-unmanned teaming scenarios, both 
in training and on the battlefield. These opportunities allowed our 
aircrews to refine tactics and ultimately increase the Apaches' ability 
to fill the reconnaissance mission.
    Technological advances in the Apache's Target Acquisition 
Designation Sight/Pilot Night Vision Sensor or M-TADS/PNVS system 
provide immediate performance improvement over legacy systems, 
increasing the Apache's ability to conduct reconnaissance while 
enhancing situational awareness. Additionally, the Longbow Fire Control 
Radar enables the Apache helicopter to detect, classify, and prioritize 
ground targets, improving the Apache's ability to fill the 
reconnaissance mission. Technological advances and the unmanned systems 
are programmed and do not represent additional expenditures.
    The complexity of these systems and training required to gain and 
maintain proficiency necessitates dedicated multi-echelon, combined 
arms home-station training resulting in a significant increase in 
combat effectiveness. Pilot transitions from the OH-58 to the AH-64 and 
home station training are reflected in current budget projections.
    Finally, The Future Vertical Lift program will incorporate new 
technologies before fleet replacement begins sometime in the 2030s. The 
Army is studying some new capabilities in its joint multi-role 
technology demonstrator but there is currently no program of record for 
replacement of the AH-64E.
                             sexual assault
    Question. What lessons learned has the Army come away with after 
the last 2 years of developing and deploying improved training to 
prevent and respond to address sexual assault? Where are the areas that 
additional work needs to be done?
    Answer. We continue to work very hard at sexual harassment and 
sexual assault. It remains our top priority. While recent reports show 
some indications that we've made some initial progress, we have much 
work to do.
    From the Secretary and Chief of Staff of the Army down to our 
newest Soldiers, we continue to attack the complex challenges of Sexual 
Assault. Sexual assault is a crime that violates the core values on 
which the Army functions, and sexual harassment shatters good order and 
discipline. Sexual harassment and sexual assault must be stamped out, 
and doing so remains a top priority throughout the Army. Commanders, 
the Chain of Command, and the Uniform Code of Military Justice provide 
the vital tools needed to prosecute offenders and hold all Soldiers and 
leaders appropriately responsible.
    Across the Army, we are committed to maintaining momentum in Army 
SHARP and making further advances along our five lines of efforts: 
Prevention, Investigation, Accountability, Advocacy and Assessment. In 
the last year, our efforts along the Prevention Line of Effort resulted 
in actions such as consolidating SHARP training under TRADOC and 
Initial Entry Training and Professional Military Education to increase 
the quality and accessibility of our prevention tools. Our 
Investigation Line of Effort showed advances in Special Victim 
capabilities and Trial Counsel Assistance Programs. The Accountability 
Line of Effort had successes through our Special Victim Investigation 
and Prosecution capability and through tools such as Command Climate 
Surveys and Commander 360 degree assessments. Our Advocacy Line of 
Effort resulted in initial indicators of progress in establishing SHARP 
resource centers in over 12 installations. We continue to see interim 
progress along our Assessment Line of Effort as noted in the 
President's report and we continue to closely monitor the established 
metrics to measure compliance.
    In sum, we have seen some progress as evident in the recent 
statistics outlined in the 2014 ``Department of Defense Report to the 
President of the United States on Sexual Assault Prevention and 
Response'' that indicate a decrease in unwanted sexual contact for 
females in fiscal year 2014 compared to fiscal year 2012. Within the 
Army, survey-estimated rates of unwanted sexual contact for the past 
year decreased significantly for active duty women (4.6 percent), 
compared to fiscal year 2012 (7.1 percent). (Note: Survey estimated 
rates of unwanted sexual contact increased for males during that same 
timeframe from 0.8 percent in fiscal year 2012 to 1.2 percent.)
    In addition, reporting data demonstrates more victims are coming 
forward to report sexual harassment and sexual assault. In fiscal year 
2014, sexual assault reporting in the Army increased by 12 percent over 
the previous year. We view this as a vote of confidence and a sign of 
increased trust in our leaders, in our response services and in 
changing Army culture. The decline in prevalence of unwanted sexual 
contact, combined with the increase in reports received, suggests the 
Army's efforts to prevent sexual assault and build victim confidence in 
our response system are making progress. Nevertheless, we must continue 
to work on fostering a climate where individuals are not afraid of 
retaliation or stigma for reporting a crime by ensuring individuals, 
units, organizations and specifically commanders and leaders understand 
their responsibilities. Retaliation takes many forms and originates 
from many sources--leaders, family, friends and, most pervasively, peer 
to peer. For example, bullying is a form of retaliation. It is 
intimidation that deters people from acting. It enables offenders, 
threatens survivors, pushes bystanders to shy from action, and breeds a 
culture of complacence. Retaliation has no place in the Army and we 
must stamp it out.
    Sexual Assault Response Coordinators and Sexual Assault Prevention 
and Response Victim Advocates are now credentialed through the DOD 
Sexual Assault Advocate Certification Program, and the Army's SHARP 
Academy is expanding their knowledge, skills and abilities. Based on 
national experts' guidance, the Army's Sexual Assault Medical Forensic 
Examiner's course now surpasses Department of Justice requirements and 
establishes a best practice for all DOD to follow.
    The chain of command is at the center of any solution to combat 
sexual assault and harassment, and we must ensure it remains fully 
engaged, involved and vigilant. Toward this end, we enhanced the 
Officer and Enlisted Evaluation Reporting Systems to assess how 
officers and NCOs are meeting their commitments--holding them 
accountable through mandatory comments on how those leaders are acting 
to foster a climate of dignity and respect and their adherence to our 
SHARP program. With commanders at the center of our efforts, we will 
continue to decrease the prevalence of sexual assault through 
prevention and encourage greater reporting of the crime. We expect to 
see reporting numbers to continue to rise. As our efforts to enforce 
discipline, prosecute offenders and eliminate criminal behavior mature, 
we expect the number of sexual assaults occurring within the Army to 
eventually decrease. There is no place for sexual harassment or sexual 
assault in our Army or our society.
    The problems of sexual assault and sexual harassment will only be 
solved when every Soldier, Civilian and Family Member stands up and 
unequivocally acts to stamp it out. Together, we have an obligation to 
do all we can to safeguard America's sons and daughters, as well as 
maintain trust between Soldiers, Civilians, Families and the Nation. 
Army leaders, at every level of the chain of command, are doing this 
through prevention, investigation, accountability, advocacy and 
assessments.
                                 ______
                                 
               Question Submitted by Senator Patty Murray
                 mobile camouflage system requirements
    Question. During combat operations in Afghanistan and Iraq, many 
Allied partner nations had adopted Mobile Camouflage Systems for their 
combat vehicle platforms--taking advantage not only of the Mobile 
Camouflage System multi-spectral signature management sensor defeat 
capabilities but also capitalizing on the Mobile Camouflage System 
heat/temperature reduction capability and significant fuel savings. 
Recognizing the potential value and increased capabilities the Mobile 
Camouflage System enables, please provide the Committee with details of 
your plan to develop, demonstrate, test, and field Mobile Camouflage 
Systems for use on U.S. Combat Vehicle platforms.
    Answer. The Army's current camouflage system is the Lightweight 
Camouflage Screening System (LCSS). The LCSS is a modular system 
consisting of a hexagon screen, a diamond-shaped screen, a support 
system, and a repair kit. The system conceals targets by: casting 
patterned shadows that break up the characteristic outlines of a 
target; scattering radar returns (except when radar-transparent nets 
are used); trapping target heat and allowing it to disperse; and 
simulating color and shadow patterns that are commonly found in a 
particular region.
    The Army is currently validating the requirements document for the 
Ultra-light Camouflage Net System (ULCANS) as a replacement for the 
legacy LCSS. The ULCANS will provide signature reduction to combat 
systems for near infrared, radar, electro-optics, and visual, and 
significantly increases thermal infrared suppression capability. As 
ULCANS is more snag resistant, lighter in weight and less voluminous 
than the LCSS it can be erected and removed faster and with less 
manpower. This ease of use will encourage greater use of camouflage, 
which will improve survivability for friendly personnel and equipment. 
The system will be fielded in desert, arctic, woodland and jungle 
patterns. The ULCANS Capability Development Document is in Army 
staffing.
    The Army will continue to review the capability in the Protection 
Capability Portfolio Review to refine methods for mobile protection in 
the camouflage, concealment, and detection strategy.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                       white sands missile range
    Question. What plans does the Army have for maintaining and 
updating the facilities at White Sands Missile Range . . . what does 
the range need to meet the needs of customers in the future, and how 
much will it cost to ensure that White Sands Missile Range will be able 
to maintain its state of the art capabilities into the future?
    Answer. The Army executes its Facility Investment Strategy to 
maintain and update its facilities Army-wide, to include White Sands 
Missile Range. The installation's current strength of 7071 personnel is 
projected to decrease by another 207 through fiscal year 2021. The 
installation completed nearly $100 million in MILCON projects from 
fiscal year 2008 to fiscal year 2011. Based on mission requirements, 
there are currently no MILCON projects in the program for White Sands 
Missile Range. In fiscal year 2014, the Army invested $16 million for 
restoration and modernization of the installation's facilities and 
infrastructure. The Installation Management Command has identified 
$84.5 million in restoration and modernization projects for White Sands 
Missile Range to compete across all Army requirements during fiscal 
year 2015 midyear and end-of-year reallocations.
    Question. Maintaining access to airspace is extremely important at 
White Sands Missile Range, but almost as important is the ability for 
our civilians and uniformed personnel to be able to travel overland 
over an extremely large area. Unfortunately, it is my understanding, 
that just like the roads across the nation, the roads at White Sands 
Missile range are increasingly in need of repair, and cuts to the 
Sustainment, Restoration, and Modernization budget are taking a toll on 
White Sands. My understanding is that there is currently a $220 million 
backlog in restoration and maintenance road work at White Sands. What 
does the Army need to prevent further deterioration of these roads, and 
does this budget fund such work?
    Answer. The current road work backlog at White Sands Missile Range 
is a subset of the Army's approximately $30 billion restoration and 
modernization backlog, which presents a fiscal challenge across all 
Army installations. Based on current budgets and pending 
congressionally approved installation realignment and closure, the Army 
has a $3 billion sustainment backlog, equating to an estimated 5520 
major work orders. In fiscal year 2014, of the Army's $16 million 
invested in repairs for White Sands Missile Range's facilities and 
infrastructure, $11 million went to road networks. In fiscal year 2015, 
the Command has prioritized one project at White Sands Missile Range to 
repair part of its range road, valued at $1.1 million. The Installation 
Management Command identified $84.5 million in restoration and 
modernization projects for White Sands Missile Range to compete across 
all Army requirements during fiscal year 2015 midyear and end-of-year 
reallocations.
    Question. One of the worst impacts of sequestration has been cuts 
to research and development. Can the Army tell me how this has impacted 
White Sands and whether the Army has assessed the impact on White 
Sands, given its need to rely on a steady customer base from all the 
military branches?
    Answer. Sequestration cuts to Army Research and Development (RDA) 
funding at the White Sands Missile Range (WSMR) have resulted in a 
decreased test customer workload. The Army continuously assesses the 
size, skill mix, and required capacity of the test workforce at White 
Sands Missile Range to ensure we can meet the needs of all our test 
customers.
    Our assessment shows that funding reductions for testing are in 
line with the overall RDA funding reductions for programs. At this 
time, we believe the current planned workforce at WSMR is adequate to 
meet known customer test requirements; however, there could be cost and 
schedule risks associated with reduced capacity as details of the RDA 
reductions become clearer over time.
    The Army is currently working to improve the predictability of 
future test requirements for all customers at WSMR in order to posture 
the workforce to meet those customer needs.
                                 energy
    Question. How important is it to the Army to continue work towards 
energy independence at our Army bases, and what can you tell me about 
the success of such initiatives at Ft. Bliss and how you plan to 
replicate this progress at other military bases? Even with lower gas 
prices, does the Army still see it as a priority to diversify its 
energy sources?
    Answer. A sustainable and energy secure Army reduces mission and 
financial risk. Accordingly, the Army gives high priority to increasing 
energy independence and security on our installations. This includes 
working closely with our partners in the utility industry. The Army's 
energy security initiatives are broad based and include decreasing 
consumption, increasing the use of renewable energy, and focusing on 
development of microgrids.
    As a Net Zero Pilot installation, Fort Bliss participated in the 
development and demonstration of best practices which are now being 
implemented across the Army to reduce energy consumption. Fort Bliss 
has made excellent progress towards improving its energy posture. 
Through the use of appropriated funds and third-party financing the 
installation has made significant investments in energy efficiency and 
renewable energy that are contributing to the energy security of the 
base. Moving forward, Fort Bliss anticipates continued expansion of the 
use of on-post renewable energy and continued investment in energy 
efficiency.
    Since fiscal year 2003, the Army has reduced its total energy 
consumption by 16.9 percent and will continue to invest in energy 
efficiency investments through the use of both appropriated funds and 
third-party financing. The Army is working to site large scale 
renewable energy projects on Army land to enhance energy security. 
These projects will provide power at or below the cost of electricity 
purchased from the grid. In addition, the Army is working to develop 
microgrid projects on its installations. The Army is leveraging lessons 
learned from microgrid initiatives at Fort Bliss and Fort Carson to 
inform these efforts.
    The decreasing price of oil reduces short term energy costs, but 
the Army's energy security efforts, including the renewable energy 
program, will continue. Decisions regarding renewable energy projects 
are made based on the price of purchased electricity. The country gets 
less than 4 percent of its electricity from petroleum based fuels. 
Utility rates are predicted to continue to increase (although less so 
than the early 2000's) while the costs of renewable energy are expected 
to decrease. It is these trends, and not the price of oil that will 
lead to expanding opportunities for cost-effective use of renewable 
power on Army installations.
                  iraq and syria train and equip fund
    Question. $600 million is budgeted for the Syria Train and Equip 
Fund and $715 million for the Iraq Train and Equip Fund. With regards 
to Syria, I am very concerned about this effort . . . not because of 
the Army. I believe our soldiers are capable of carrying out their 
objectives. What I don't trust is the ability of the Syrian rebels to 
use, and maintain a chain of custody of the weapons given to them by 
the United States. How do you plan on addressing these issues and how, 
in your opinion, can we ensure that weapons we give to Syrian rebels 
are not turned against us in the future?
    Answer. There is risk associated with Syrian rebels maintaining a 
chain of custody for weapons given to them by the United States. While 
the Army remains committed to supporting the training and development 
of the Syrian rebel groups who will be equipped under this program, 
CENTCOM, as the Combatant Command, is responsible for developing and 
implementing a mitigation plan to help ensure the weapons remain under 
the control of the selected rebel groups. The Army will support 
CENTCOM's efforts to mitigate this risk.
                                 morale
    Question. How would you assess the morale of our soldiers and their 
families after over a decade of war? How has sequestration, and the 
impact on readiness in particular impacted the morale of our soldiers?
    Answer. Our Soldiers have done everything that we have asked of 
them and more over the past 14 years, and they continue to do it today. 
Today, our Soldiers are supporting five named-operations on six 
continents with nearly 140,000 Soldiers committed, deployed, or 
forward-stationed in over 140 countries. They remain professional and 
dedicated--to the mission, to the Army, and to the Nation.
    They continue to do what is asked of them; however, there's a lot 
of pressure on our Soldiers right now because of the massive reductions 
that we've already gone through and the massive reductions that we're 
facing--there's uncertainty. On top of that, there's discussion about 
pay and benefits, retirement, and other issues facing our Soldiers and 
Families. All of this is putting pressure on them. Although we have not 
seen a breaking point yet, I worry when that will occur in the future.
    The center of everything we do is our Soldiers. The Army is our 
Soldiers, and without them and their capabilities, our ability to do 
our job becomes very, very difficult.
    We owe it to them to ensure they have the right equipment, the best 
training; and the appropriate family programs, healthcare, and 
compensation packages commensurate with their sacrifices.
    If Congress does not act to mitigate the magnitude and method of 
the reductions under the sequestration, the Army will be forced to make 
blunt reductions in end strength, readiness, and modernization, 
potentially affecting our Soldier's morale. It is our shared 
responsibility to ensure that we never send members of our military 
into harm's way who are not trained, equipped, well-led, and ready for 
any contingency to include war.
                              tow missile
    Question. There are many skilled workers who have supported the TOW 
missile, including many in New Mexico. Has the Army made an effort to 
work with these businesses, to ease their transition to other work once 
the TOW missile is retired? In short, what can we do to help these 
businesses and employees remain active in supporting Army missions into 
the future, so that their expertise and training is not lost?
    Answer. The Army has no plans to retire or discontinue TOW 
production through fiscal year 2029. Accordingly, it would be premature 
to address concerns regarding employee transition at this time.
                     iraq and train and equip fund
    Question. How does the $715 million for the Iraq train and equip 
fund compare to the support currently being given by Iran to Iraq and 
how does this impact our strategic goals vis a vis Iraq?
    Answer. There are various Intelligence Estimates regarding the 
support Iran is providing both directly and indirectly to Iraq. I 
remain concerned about Iran's efforts to spread its influence and its 
ideology to Iraq. Our efforts both in and around Iraq aim to minimize 
the threat Iran poses to Iraq and our interests in the region. 
Ultimately, our strategic goal is a free and stable Iraq capable of 
defending itself from both external and internal hostile actors. There 
remain many obstacles to achieving this objective, but we believe that 
given time and space, Iraq can prevail.
                          federal i.t. reform
    Question. Describe the role of the Army's Chief Information Officer 
(CIO) in the development and oversight of the IT budget for the Army. 
How is the CIO involved in the decision to make an IT investment, 
determine its scope, oversee its contract, and oversee continued 
operation and maintenance?
    Answer. The Army's CIO holds the fiscal integration role in the 
Planning, Programming, Budgeting, and Execution process. The CIO 
executes the CIO annual operating budget and Overseas Contingency 
Operations funding. The CIO's role in the development and oversight of 
the Army's IT budget is to provide management oversight and, in 
partnership with the Army's Deputy Chief Management Officer and with 
support from other organizations, quarterly updates to the Secretary of 
the Army regarding execution of the IT budget. The CIO maintains fiscal 
discipline by tracking all Army IT expenditures to ensure budgets are 
specifically linked to IT investment strategies. The CIO also 
implements the Army Request for Information Technology initiative to 
provide visibility and accountability of IT procurement.
    The CIO defines overall Army network modernization plans and 
recommends priorities for the resourcing of network modernization 
activities. The CIO ensures that the IT portfolio supports the 
published LandWarNet 2020 strategy and architecture and is optimized 
with effective and affordable IT solutions. The CIO also refines the 
requirements validation process, to include consideration of specific 
organizational needs, e.g., Army Corps of Engineers, Army National 
Guard, Army Reserve, Army Medical Command and organizations with 
executive agent status, such as the Information Technology Agency. The 
CIO publishes IT architecture guidance, enterprise-level rules, and 
technical standards. In addition, the CIO makes recommendations to the 
Secretary of the Army regarding the alignment of organizational roles, 
responsibilities and levels of authority in order to improve each 
mission area's ability to perform effective portfolio management. The 
CIO uses the Network Integration Evaluation process to evaluate cutting 
edge technologies for incorporation into Army programs.
    Additionally, the CIO/G-6 is a voting member of the Army Business 
Council, which provides governance for investments in business systems 
(i.e., acquisition, logistics, installation management, financial 
management, and human resources systems). Program managers determine 
scope and oversee contracts and operation and maintenance for business 
systems. They also coordinate with the CIO/G-6 for the integration of 
these systems into the Army's network.
    Question. Describe the existing authorities, organizational 
structure, and reporting relationship of the Chief Information Officer. 
Note and explain any variance from that prescribed in the newly enacted 
Federal Information Technology and Acquisition Reform Act of 2014 
(FITARA, PL 113-291) for the above.
    Answer. The Army CIO reports directly to the Secretary of the Army 
with the authorities identified in Titles 5 (Sec. 552), 10 
(Sec. Sec. 2222 and 2223), 31 (Sec. Sec. 1115, 1116, 1119 and 1120), 40 
(Sec. 11315) and 44 (Sec. Sec. 3506 and 3544). The CIO is organized 
around three directorates: (1) Architecture, Operations, Networks and 
Space (AONS), which develops Army IT strategy and the integrated IT 
architecture, and manages IT infrastructure; (2) Policy and Resources 
(P&R), which oversees IT policy and governance, capital planning, 
investment management and enterprise service management; and (3) 
Cybersecurity, which develops and manages cybersecurity strategy, 
identifies potential network risks and associated impacts and 
mitigation based on Army objectives, and oversees policies and 
processes to ensure adherence to security standards. As a member of the 
Department of Defense, the Army CIO participates in DOD CIO councils, 
as well as the Joint Information Environment. There is no variance in 
relationships or authorities noted in FITARA 2014.
    Question. What formal or informal mechanisms exist in the Army to 
ensure coordination and alignment within the CXO community (i.e., the 
Chief Information Officer, the Chief Acquisition Officer, the Chief 
Finance Officer, the Chief Human Capital Officer, and so on)?
    Answer. Several formal and informal mechanisms for Information 
Technology (IT) coordination and governance exist within the Army, 
which divides IT management into four governance categories, called 
Mission Areas.
    The Army has three formal governing bodies for the coordination and 
synchronization of IT capabilities supporting Army processes and 
forces. Each body is chartered by the Secretary of the Army and 
includes like membership from across the CXO community.
  --The Army Business Council (ABC) coordinates and manages the 
        Business Mission Area (BMA), which focuses on Army business 
        processes, process reengineering, and IT investments supporting 
        acquisition, logistics, installation management, financial 
        management, human resources, and training and readiness.
  --The Land War Net Mission Command General Officer Steering Committee 
        (LWN MC GOSC) coordinates and manages the Warfighter Mission 
        Area (WMA), which focuses on mission command in tactical and 
        operational environments and associated IT investments 
        supporting tactical units and systems.
  --Army Enterprise Network Council (AENC) coordinates and manages the 
        Enterprise Information Environment Mission Area (EIEMA), which 
        focuses on network deployment, operations, and IT investments 
        supporting enterprise services, network modernization, and 
        cyber security.
    Title 10, United States Code does not directly apply to Defense 
Intelligence Mission Area (DIMA). The DIMA IT portfolio is managed in 
accordance with Title 50, United States Code and is integrated into the 
greater Intelligence Community (IC) with coordination pathways to the 
other three Army mission areas.
    The Army Management Action Group (AMAG) is the Army's top level 
governing forum and membership includes the primary CXO executives. The 
AMAG provides oversight ensuring coordination among and between the 
above governing bodies.
    In addition, the Army Planning, Programming, Budgeting and 
Execution (PPBE) process is another formal mechanism that ensures 
coordination and synchronization of IT investments and capabilities 
delivery across all mission areas.
    The Army also has a number of informal, non-chartered activities 
that drive solutions to cross-mission area and cross-domain IT 
challenges. These activities include but are not limited to specific 
task focused planning teams and working groups formed to analyze 
synchronization and coordination challenges, make recommendations for 
overcoming identified challenges, and conduct solution implementation 
planning.
    Question. According to the Office of Personnel Management, 46 
percent of the more than 80,000 Federal IT workers are 50 years of age 
or older, and more than 10 percent are 60 or older. Just 4 percent of 
the Federal IT workforce is under 30 years of age. Does the Army have 
such demographic imbalances? How is it addressing them?
    Answer. Army civilian IT workforce demographics are compared to the 
overall Federal Government civilian IT workforce in the table below.

                     IT WORKFORCE AGE DEMOGRAPHICS FEDERAL GOVERNMENT AND ARMY (2210 SERIES)
----------------------------------------------------------------------------------------------------------------
                                                  20-29      30-39      40-49      50-59       60+       Total
----------------------------------------------------------------------------------------------------------------
Federal.......................................         4%     Not        Not           36%        10%     80,000
                                                            Provided   Provided
Army..........................................         2%        18%        30%        38%        12%     10,475
                                                    (255)    (1,878)    (3,129)    (4,019)    (1,192)
----------------------------------------------------------------------------------------------------------------

    Demographic imbalances similar to those of the broader Federal 
workforce exist in the Army. The low percentage of civilian IT 
employees under age 30 can be attributed, in part, to many early/mid-
career hires who are former military in their 30s or 40s when they 
transition from military to civilian service (or military to contractor 
to civilian status). As veterans' hiring preferences apply, and many 
veterans have active security clearances and choose to work for the 
Army, a significant number of veterans are hired to work as Army 
civilians.
    The Army has an active intern program that hires 50 to 70 IT 
interns per year. To add to the feeder population of ``under 30'' 
hires, the Army (and the Federal Government) will need to do several 
things: (1) promote the organization as an agency of choice for young 
civilians (who may not know the full opportunities available in a 
civilian Army career); (2) expand hiring authorities for non-veterans 
who are excluded or eclipsed from competition due to veterans' hiring 
preferences, especially in the under 30 age set; and (3) promote the 
hiring of graduates from STEM (science, technology, engineering and 
mathematics) and other IT/cyber academic programs, and seek ways to 
assure their placement.
    Question. How much of the Army's budget goes to development, 
modernization and enhancement of IT systems, as opposed to supporting 
existing and ongoing programs and infrastructure? How has this changed 
in the last 5 years?
    Answer. Appropriations for Other Procurement, Army (OPA) and 
Research, Development, Testing and Evaluation, Army (RDTE) comprise 
development and modernization funding (DEVMOD). The Army's maintenance 
and support activities constitute the Operation and Maintenance, Army 
(OMA) appropriation known as Current Services. The proportions from 
fiscal year 2010 to fiscal year 2014 are shown in the table below.

----------------------------------------------------------------------------------------------------------------
                                                               DEVMOD   Current
                                                              IT (OPA  Services
                                                              & RDTE)  IT (OMA)    DEVMOD      C/S      Base/OCO
                         Fiscal year                          percent   percent  (million)  (million)    Budget
                                                              of Base/ of Base/                        (billion)
                                                                OCO       OCO
----------------------------------------------------------------------------------------------------------------
2010........................................................        2         2       5.3        4.8        243
2011........................................................        3         2       6.3        4.9        240
2012........................................................        3         3       5.5        5.3        207
2013........................................................        2         3       4.0        6.1        177
2014........................................................        2         4       3.2        6.1        162
----------------------------------------------------------------------------------------------------------------

    The Army's investment in development, modernization, and 
enhancement of business IT systems is roughly 40 percent of business IT 
expenses (as opposed to operation and maintenance). Over the last 5 
years, sustainment expenses (i.e., O&M) for business IT systems has 
increased from approximately 40 percent to 60 percent, while the amount 
for development, modernization and enhancement of business IT systems 
have decreased accordingly. From fiscal year 2014 to fiscal year 2015, 
the Army's overall business IT expenditure decreased from approximately 
$2.4 billion to $1.97 billion.
    Question. What are the 10 highest priority IT investment projects 
that are under development in the Army? Of these, which ones are being 
developed using an ``agile'' or incremental approach, such as 
delivering working functionality in smaller increments and completing 
initial deployment to end-users in short, 6-month timeframes?
    Answer. Ten priority IT capabilities for the Army are:
  --Joint Information Environment (JIE) capabilities to include Joint 
        Regional Security Stacks (JRSS) and Multi-Protocol Label 
        Switching (MPLS)
  --Assured Global Positioning System position, navigation and timing
  --Mounted/dismounted on-the-move communications and information 
        networks
  --Tactical data and network radios
  --Joint Battle Command
  --Processing, exploitation and dissemination of intelligence 
        information
  --Cyber security
  --Network management
  --Strategic, operational and tactical command and control
  --Enterprise resource planning and management
    The program managers responsible for delivering these capabilities 
focus on providing them in accordance with Army requirements and 
timeframes, to include incremental delivery when appropriate.
    Question. To ensure that steady state investments continue to meet 
agency needs, OMB has a longstanding policy for agencies to annually 
review, evaluate, and report on their legacy IT infrastructure through 
Operational Assessments. What Operational Assessments have you 
conducted and what were the results?
    Answer. Recently, the Army conducted several operational 
assessments of legacy infrastructure. These evaluations resulted in 
initiatives, such as Joint Regional Security Stacks (JRSS), Multi-
Protocol Label Switching (MPLS), and data center consolidation, which 
will modernize the network and provide both efficiencies and improved 
capabilities.
    An assessment of the Army's legacy security architecture led to the 
conclusion that efficiencies could be gained by replacing the localized 
security architecture (TLA stacks) with a regional security 
architecture (JRSS). The Army also is replacing Asynchronous Transfer 
Mode switches with MPLS, which increases network speed and lays the 
groundwork for enterprise solutions such as Voice over Internet 
Protocol and Unified Capabilities. Additionally, the Army is 
dramatically shrinking the time required to replace installation 
infrastructure from 5 years to 3 months per location.
    To date, the Army has completed 42 Installation Discovery Reports, 
which are critical to planning and executing data center consolidation. 
Additionally, the Army recently completed phase one of the Redstone 
Pilot, which examined collapsing a data center. Phase one involved 
discovery of applications and capabilities within the data center to 
determine which could be moved and which should remain local. Phase two 
will determine the cloud hosting environment (commercial or government) 
for the applications that should be moved.
    The Army Test and Evaluation Command plans, integrates and conducts 
experiments, developmental testing, independent operational testing and 
independent evaluations and assessments to provide essential 
information to acquisition decision makers and commanders. Other types 
of infrastructure assessments that the Army is leading include the 
technical assessments at the Central Technical Support Facility at Fort 
Hood to certify programs of record for interoperability. Network 
Integration Evaluations, which occur in a more experimental 
environment, look at the impact of new technology on existing 
infrastructure.
    Question. How does the Army's IT governance process allow for the 
Army to terminate or ``off ramp'' IT investments that are critically 
over budget, over schedule or failing to meet performance goals? 
Similarly, how does the Army's IT governance process allow for the Army 
to replace or ``on ramp'' new solutions after terminating a failing IT 
investment?
    Answer. The Army complies with the National Defense Authorization 
Act for IT portfolio management and manages IT investments by mission 
area. IT investments are divided into four categories: business 
systems, warfighting/weapons systems, enterprise network systems, and 
intelligence systems. The Army employs several three-star-level 
governance forums to review, validate, and prioritize IT requirements. 
The business systems' governing body is the Army Business Council; it 
is responsible for evaluating and managing the business system 
portfolio, including ``on-ramp'' and ``off-ramp'' decisions. In his 
role as Chief Management Officer, the Under Secretary of the Army also 
exercises oversight of the business system portfolio. The Office of 
Business Transformation and the Army's DCMO chair the Army Business 
Council and oversee all business system program investments, which 
include acquisition, logistics, installation management, financial 
management, and human resources systems. The Army conducts annual, 
periodic, and directed reviews of business IT systems to assess 
continued suitability.
    The weapons systems' governing body is the LandWarNet Mission 
Command General Officer Steering Committee; it is responsible for 
evaluating and managing weapons systems' portfolio, including ``on-
ramp'' and ``off-ramp'' decisions. G-3/5/7 and CIO/G-6 co-chair this 
committee and oversee all tactical IT program investments.
    The enterprise network systems' governing body is the Army 
Enterprise Network Council, which is responsible for evaluating and 
managing the enterprise network, including ``on-ramp'' and ``off-ramp'' 
decisions. The CIO/G-6 chairs the Army Enterprise Network Council and 
oversees all enterprise network investments.
    Title 10 United States Code does not directly apply to the 
intelligence systems mission area.
    The Headquarters, Department of the Army Deputies Forum regularly 
shares perspectives on various topics. This body is comprised of 
personnel from across the Army Secretariat and Staff, including the 
Chief Management Office, the Office of the Administrative Assistant, 
the Assistant Secretary of the Army (Financial Management and 
Comptroller), the Assistant Secretary of the Army (Acquisition, 
Logistics and Technology), the CIO/G-6, the Director of the Army Staff, 
the Deputy Chief of Staff for Operations (G-3/5/7) and others. 
Acquisition reviews, portfolio reviews and resourcing reviews for IT 
programs are also part of the department's governance processes.
    Question. What IT projects has the Army decommissioned in the last 
year? What are the Army's plans to decommission IT projects this year?
    Answer. In fiscal year 2014, the Army terminated 92 obsolete or 
redundant business IT systems. This figure constitutes a substantial 
increase from the 35 originally planned and is a 14 percent reduction 
in the overall number of Army business IT systems. The Army plans to 
terminate at least 19 additional business IT systems and will merge the 
majority of their functions into one of four enterprise resource 
planning systems.
    Additionally, in fiscal year 2015 the Army intends to close the 
commercial data center that currently houses Army Knowledge Online's 
Disaster Recovery (DR) site, and to transition that capability to a 
government facility. This change will reform the DR site into one that 
can be activated when necessary, rather than being on continuously. The 
anticipated cost avoidance is $5 million per year.
    With the successful migration of Army email to the joint solution, 
Defense Enterprise Email, the legacy Army Knowledge Online (AKO) email 
service is now redundant. The Army will shut down AKO email before the 
end of 2015. The anticipated cost avoidance is $3 million annually.
    The Army continues to invest in network modernization and 
implementation of the Joint Information Environment. Increases in 
bandwidth, better traffic management (via Multi-Protocol Label 
Switching), consolidation of security stacks and enclaves into Joint 
Regional Security Stacks, and the transition to cloud-enabled 
infrastructure and services will allow future divestiture of analog 
services whose maintenance bills continue to grow.
    The Army data center consolidation initiative also is making good 
progress. In fiscal year 2014, the Army consolidated 142 data centers 
(120 small and 22 conventional facilities), which produced aggregate 
savings of more than $4.5 million. In fiscal year 2015, the goal is to 
close 135 data centers, which will keep the Army on pace to meet the 
overall DOD fiscal year 2018 goal of a 60 percent reduction in 
facilities. (Currently, the Army is at 40 percent, which meets the 
Federal Data Center Consolidation Initiative requirement.) So far this 
year, the Army has closed 26 facilities.
    Question. The newly enacted Federal Information Technology and 
Acquisition Reform Act of 2014 (FITARA, PL 113-291) directs CIOs to 
conduct annual reviews of their IT portfolio. Please describe the 
Army's efforts to identify and reduce wasteful, low-value or 
duplicative information technology (IT) investments as part of these 
portfolio reviews.
    Answer. The Army CIO uses a combination of policy, resourcing and 
governance to oversee the IT portfolio. Policy is employed to set the 
conditions for how IT is procured, operated and secured, and reinforces 
best buying practices. For governance, the Department of the Army uses 
three-star-level forums to review, validate and prioritize IT 
requirements, allocate resources and identify efficiencies. These 
include the Army Business Council, the Army Enterprise Network Council 
and the LandWarNet Mission Command General Officer Steering Committee.
    In a May 2014 memorandum, the Under Secretary of the Army 
delineated governance roles, responsibilities and structure to manage 
alignment of Army business IT investments. This memo serves as the 
governing document for annual IT investment decisions across all Army 
mission areas. The Army Business Council, chaired by the Director of 
the Office of Business Transformation and of which the CIO/G-6 is a 
member, manages the Army business systems capability life cycle. The 
Army Enterprise Network Council, chaired by the Army CIO, reviews all 
enterprise network-related requirements and resources to facilitate, 
secure and sustain synchronized end-to-end network capabilities and 
services to support the Army's business and warfighting requirements. 
Additionally, as the Army's IT integrator, the CIO/G-6 fully 
participates in the Planning, Programming, Budget and Execution 
process, which oversees the prioritization of IT programs and the 
allocation of IT resources across the Army.
    These three cross-cutting governance forums provide integrated IT 
oversight and direction to eliminate waste by determining whether to: 
(1) develop a new, or modify or enhance an existing, capability; and 
(2) terminate an initiative that has outlived its purpose. Also, the 
department uses the Army Portfolio Management System to catalogue and 
track all IT investments reported to the Office of the Secretary of 
Defense, the Office of Management and Budget, and Congress.
    As an extension of the Title 10 USC Sec. 2222 requirement for a 
business enterprise architecture, the Army Business Council (ABC) is 
developing and maturing its Business Systems Architecture (BSA) as a 
decision support tool for portfolio management of its business IT 
systems. The BSA matches all of the Army's business IT systems to each 
of the processes that the Army is required to perform under Title 10 
(i.e., operation activities). The intent is to maintain a high ratio of 
operation activities to systems (i.e., one system does many things), 
and to reduce instances of many systems performing the same activities 
and single systems performing few activities. The BSA continues to 
mature and is reviewed on a perpetual basis by the ABC, system owners, 
and Army Commands.
    Question. In 2011, the Office of Management and Budget (OMB) issued 
a ``Cloud First'' policy that required agency Chief Information 
Officers to implement a cloud-based service whenever there was a 
secure, reliable, and cost-effective option. How many of the Army's IT 
investments are cloud-based services (Infrastructure as a Service, 
Platform as a Service, Software as a Service, etc.)? What percentage of 
the Army's overall IT investments are cloud-based services? How has 
this changed since 2011?
    Answer. The Army's cloud computing strategy was published in March 
2015. It will soon be followed by a commercial cloud computing policy 
that further shapes cloud-hosting opportunities.
    Over the past year, the Army has made great strides in cloud 
computing through participation in the Defense Information Systems 
Agency pilot for commercial cloud. As part of this effort, the Army 
migrated the Proactive Real-property Interactive Space Management 
System and the Defense Environmental Network and Information Exchange 
Knowledge Based Corporate Reporting System to the cloud. These ongoing 
pilots are evaluating security architectures, cybersecurity 
requirements and cost baselines. The pilot programs will also inform 
refinement of the minimum legal, contract and service-level agreement 
language required to leverage fully multiple commercial clouds while 
ensuring the protection and sovereignty of data.
    The Army G-2 is actively participating in Intelligence Community 
cloud development efforts, known as the Intelligence Community 
Information Technology Environment (IC ITE). In fiscal year 2015 and 
fiscal year 2016, as part of the IC ITE roadmap, the Army will 
participate in several pilots. Lessons learned will be used to 
influence broader Army intelligence, mission command and cyber cloud 
activities.
    Army Recruiting Command has migrated its frontline recruiting force 
to the commercial cloud to conduct unclassified and publicly releasable 
business activities. The Army also is migrating U.S. Army Europe's 
public facing website, the Ammunition Management and Information 
Tracking System, and the Army's Strategy Management Systems in order to 
gain additional insights into public cloud offerings and to refine 
processes and procedures related to migration.
    Question. Provide short summaries of three recent IT program 
successes--projects that were delivered on time, within budget, and 
delivered the promised functionality and benefits to the end user. How 
does the Army define ``success'' in IT program management? What ``best 
practices'' have emerged and been adopted from these recent IT program 
successes? What have proven to be the most significant barriers 
encountered to more common or frequent IT program successes?
    Answer. The Army has a number of recent IT program successes 
including the Global Combat Support System--Army (GCSS-Army), the 
Integrated Personnel and Pay System-Army (IPPS-A), and the General Fund 
Enterprise Business System (GFEBS).
    GFEBS is a commercial off-the-shelf web-based Enterprise Resource 
Planning (ERP) solution to integrate financial, real property and other 
asset, cost and performance data and is the first accounting system for 
Army-wide application. The system enables the Army with the ability to 
streamline and share critical financial data across the Active Army, 
the Army National Guard and the Army Reserve at over 200 locations, 
worldwide. As a result, GFEBS supports the Army's goals of achieving an 
unqualified opinion on financial statements and providing a new cost 
accounting system. GFEBS completed deployment in July 2012 and is 
operational at Headquarters Department of the Army, 29 Army Commands, 
Army Service Component Commands, and Direct Reporting Units, over 200 
locations world-wide and in 71 countries.
    The system brings the Army into full compliance with the Chief 
Financial Officer (CFO) Act of 1990 and other statutory and regulatory 
requirements. GFEBS is the cornerstone for the Army obtaining an 
unqualified audit option; it provides real-time visibility of 
transactions as well as access to historical data. The system enables 
the Army to produce cost management data from a single integrated 
financial and cost accounting system. GFEBS, additionally, enables real 
property management in compliance with DOD Real Property Information 
Model (RPIM) and DOD Financial Management Regulation (DODFMR).
    GCSS-Army is a commercial off-the-shelf solution that will reach 
full deployment in fiscal year 2017. It is one of the Army's top 
priority modernization efforts and enables the Army for the first time 
ever to field, at the installation and tactical levels, an integrated 
logistics and financial capability in one system. It provides a 
singular web-based, worldwide transparent view of transactional and 
authoritative logistics and financial data and is an improvement from 
our legacy systems, as it transforms our capabilities for global 
interoperability, connectivity, uniformity, visibility, accountability, 
and auditability within our business areas of supply, maintenance, 
property accountability, and finance.
    The GCSS-Army program successfully completed full testing and is 
currently conducting training and Wave 1 fielding in accordance with 
the Office of the Secretary of Defense, Full Deployment Decision. As of 
March 20, 2015, GCSS-Army Wave 1 had been fielded to 68 percent of the 
Army. The GCSS-Army system also integrates with GFEBS, an enterprise-
wide financial capability, in order to provide a single, financial 
solution within the Army. GCSS-Army also integrates its capabilities 
with the Army's national level logistics ERP system called the 
Logistics Modernization Program (LMP). GCSS-Army Wave 1 fielding 
provides the financial solution for installation and tactical logistics 
as well as supply capabilities for Supply Support Activities and Army 
Warehouses. During fiscal year 2015, GCSS-Army will continue Wave 1 
fielding and continue Wave 2 fielding.
    Wave 2 limited deployment has begun and fielding group 2 has been 
successfully fielded with the GCSS-Army Capability. Wave 2 capabilities 
will integrate and enhance unit level maintenance operations, supply 
operations, property accountability functionality, and additional 
financial capability by fiscal year 2017. GCSS-Army remains on schedule 
and within cost thresholds to complete Full Deployment by the end of 
September 2017 and is a key component for the Army to be financially 
auditable by 2017.
    IPPS-A is a modern, multi-component human resources system that 
gives Soldiers and commanders 24/7, self-service access to personnel 
and payroll information, while providing decision-makers with precise, 
relevant, timely, and authoritative data. IPPS-A is being developed in 
two increments. Increment 1 provides a trusted data source for 
personnel and human resources data for the entire Army in one database. 
Increment 2 will deliver full integrated personnel and pay services for 
all Army components building on the trusted database delivered by IPPS-
A Increment 1.
    Deployment of IPPS-A Inc 1 has been fielded to the entire Army 
population, including Active, Army National Guard, and Army Reserve and 
provides Soldiers the ability to view their own Soldier Record Brief. 
It received a formal Full Deployment Decision in April 2014 and 
completed deploying in January 2015. IPPS-A Increment 1 was completed 
within the schedule and cost thresholds dictated in the Acquisition 
Program Baseline.
    The Army has refined its governance with respect to managing long-
term investments in the Army's business IT systems portfolio. We have 
grouped our best practices into three major categories: (1) 
Requirements review; (2) In-Progress Review (IPR) and refinement; and 
(3) Testing. Keys to success include:
  --using trusted industry commercial solutions;
  --focused user and program manager continual Business Process 
        Reengineering (BPR);
  --General Officer Steering Committees that focus on limiting 
        interfaces and scope creep issues;
  --imbedded functional teams that work with program managers daily to 
        insure the product meets functional capabilities;
  --use of virtual training environments to get user input and 
        understanding early; and
  --continual operational testing through 24 hour web based test 
        environments.
    Some examples of the biggest barriers to successful IT 
implementation include: programs not receiving sufficient funding or 
receiving funding later than needed; program staff being over-utilized 
or lacking the necessary skills and experience on business systems; 
development work being slowed by inefficient governance and oversight 
processes; and program requirements and interfaces not being stable and 
prioritized. Many of the Army's best practices have come from analyzing 
and determining means to address these challenges.
    Question. Terry Halverson, the DOD Chief Information Officer (CIO), 
has outlined a vision for DOD use of cloud computing that empowers the 
military departments and components to procure their own cloud 
computing solutions. How will the implementation of this transition to 
cloud computing be rationalized across the Army to ensure that common 
standards, data portability and other enterprise-wide issues are 
properly managed and addressed?
    Answer. The Army created the Army Application Migration Business 
Office (AAMBO), within the Program Executive Office Enterprise 
Information Systems, to serve as the single focal point for application 
and system owners during the migration process. The Army intends to 
leverage pre-negotiated terms and pricing at the DOD and Army 
enterprise levels through AAMBO. AAMBO is responsible for assisting 
system and application owners with defining modernization and migration 
requirements, determining the most appropriate cloud deployment model, 
and negotiating and acquiring cloud capabilities from approved cloud 
service providers (CSP). In coordination with the DOD CIO, AAMBO has 
already developed standard contractual terms and conditions, as well as 
service level agreements, to be used for all commercial cloud 
contracts. This will help to drive adoption of agnostic solutions and 
to avoid platforms or technologies that lock the Army into a particular 
product. Additionally, application developers will ensure that the 
infrastructure interfaces provided in the cloud are generic, or that 
data adaptors at least can be developed so that the portability and 
interoperability of the application are not significantly impacted.
    Army Commands or functional domain managers that represent the 
various applications/systems are responsible for sponsoring and funding 
an application's or system's functionality, which includes 
modernization, if required, and migration to a CSP. All application/
system owners must work directly with AAMBO to acquire cloud services 
regardless of the deployment model ultimately selected. In the event 
that certain cloud capabilities required by the Army are not readily 
available, Product Director Enterprise Computing will design and 
implement such capabilities to meet the requirements and architecture 
of the Data Center/Cloud Computing Environment.
            high-performance computing modernization program
    Question. The Army's budget request includes $177 million for the 
High-Performance Computing Modernization Program, funding that is 
essential to helping the Department of Defense meet its data-intensive 
supercomputing requirements.
    The Department's supercomputing network is essential to the 
military's ability to exploit cutting-edge software and hardware to 
perform complex data-intensive missions, such as research and 
development in areas like space and astrophysical science, fluid 
dynamics, as well as analysis in support of cyber security and signal 
and image processing for military operations. Without these 
supercomputing systems, these data-intensive missions would grind to a 
halt.
    I have concerns about the allocation of these funds to the five 
regional supercomputing centers and wonder whether the Army is 
appropriately modernizing each of the Department's supercomputing 
centers so that they can continue to support long-term military 
requirements.
    Can you please describe how the Army allocates modernization funds 
to each of the DOD supercomputing centers, including any programming 
criteria that are considered for technology refreshes, such as COCOM 
mission requirements? In your response, please address how the Army 
spent the fiscal year 2014 appropriation for the High-Performance 
Computing Modernization Program, including the breakdown for each of 
the supercomputing centers, and how much is programmed for each of the 
supercomputers in fiscal year 2015.
    Answer. The High-Performance Computing Modernization Program 
(HPCMP) contains five DOD Supercomputing Resource Centers (DSRC): Air 
Force Research Lab (AFRL), Army Research Lab (ARL), Army Engineer 
Research and Development Center (ERDC), Navy DOD Supercomputing 
Resource Center (Navy DSRC), and Maui High-Performance Computing Center 
(MHPCC). Use of supercomputing centers is not regionally based: Users 
are assigned to specific centers according to the technological 
capabilities needed to solve their problems, not geographic locality. 
The HPCMP primarily supports the DOD research, development, test and 
evaluation (RDT&E) community, using a structured process for assigning 
computational requirements. Senior representatives from each of the 
Services and Defense agencies who serve on the HPC Advisory Panel 
validate these requirements.
    The HPCMP conducts detailed user-requirements analysis for future 
classified and unclassified high-performance computing needs. The 
decision to place new technology at the centers is based on each 
center's ability to accommodate the new computers in terms of raised 
floor space, power and cooling infrastructure, and the cost of power. 
Each year, the HPCMP buys supercomputers for two DSRC locations as part 
of an annual technology refresh. In even years, the Army ERDC and the 
Army Research Laboratory DSRCs are refreshed, and in odd years Navy and 
AFRL DSRCs are refreshed. The HPCMP budget does not include programmed 
funds for technology refresh for Maui. Funding for supercomputers 
technology refresh was $62.7 million in fiscal year 2014 and $65.3 
million in fiscal year 2015.
    Every July, each DSRC submits an annual operations budget request 
for the coming fiscal year along with a budgetary projection for the 
subsequent 5 fiscal years. These submissions are based on projected 
workloads derived from validated user requirements. HPCMP leadership 
reviews the submissions and allocates funding based on each center's 
mission scope and ability to execute the requirements.
    In fiscal year 2014, $84.7 million was allocated to the centers for 
operations: AFRL, $15.542 million; ARL, $15.258 million; ERDC, $20.361 
million; MHPCC, $12.532 million; Navy, $12.300 million; and Program-
Wide Center Support, $8.711 million.
    In fiscal year 2015, $85.3 million was allocated to the centers for 
operations: AFRL, $16.218 million; ARL, $13.229 million; ERDC, $18.371 
million; MHPCC, $14.119 million; Navy, $11.129 million; and Program-
Wide Center Support, $12.197 million.
    Beyond the DSRCs, the HPCMP budget includes the DOD Research and 
Engineering Network, which provides secure connectivity to high-
performance computing capability and software applications that allow 
researchers to effectively and efficiently utilize high-performance 
computing. Together, these elements make up the ecosystem (hardware, 
software, network and expert support) required to provide high-
performance computing capabilities for DOD.
   iraq train and equip fund, overseas contingency operations account
    Question. Department of Defense programs to train and arm foreign 
military and security forces (including irregular forces) are a key 
pillar of the U.S. campaign to combat the spread of the Islamic State 
(IS) in Iraq and Syria. In the 2015 Omnibus appropriations legislation 
Congress appropriated $1.6 billion to the Iraq Train and Equip Fund as 
part of the DOD's Overseas Contingency Operations request. These funds 
were intended to train and equip the Iraqi and Kurdish forces so that 
they may be able to launch effective counter-offensive operations, 
regain territory, and prevent the Islamic State of Iraq and the Levant 
(ISIL) from exercising its particularly violent brand of extremism in 
its de facto state. ISIL still holds key territory and continues to 
exert their will on the citizens of Iraq. In your professional military 
opinion, when can we expect to see a significant return on this 
investment in the Iraqi and Kurdish forces?
    These funds, in concert with the more than 2,000 U.S. military 
advisors currently deployed to Iraq, provide the means by which to 
train the Iraqi, Kurdish and Tribal forces to defeat and reverse the 
spread of the IS in Iraq, and to provide them equipment that is common 
to their current fleets. A failure to provide equipment already in use 
within their security forces will exacerbate training and logistical 
challenges for their brigades. Are we providing them the training they 
need to be successful? Is the equipment we are providing them common to 
their already-existing fleet of weapons and vehicles? If the equipment 
we are providing is not already resident in their fleets and arsenals, 
what is the justification for providing non-similar equipment?
    Answer. The Iraqi Campaign Plan to defeat ISIL and re-establish 
control of its sovereign territory is conditions based more so than it 
is driven by a timeline. It is part of a broad coalition effort that 
will be executed over several years. Therefore it would be speculative 
to determine when the United States can expect to see a return on its 
investment. Regarding the training and equipment being provided, we are 
supporting the request made to us by the Iraqi government and in 
support of CENTCOM's efforts to meet those requirements.
    The Iraq Train and Equip Legislation provides a variety of vehicles 
to build eight Iraqi Security Force Brigades, three Peshmerga brigades, 
and provide support to tribal units. Among these are light/medium 
trucks and counter IED vehicles. The funding is being apportioned by 
the DOD to provide immediate Iraqi capability to conduct counter 
offensive operations against ISIL.
    To date (MAR 15), 25 percent of these funds have been released for 
execution. The Army is providing up to 184 light and medium trucks and 
a small number of IED detection vehicles. The Coalition Forces Land 
Component Command--Iraq (CFLCC-I), in coordination with the Iraqi 
government, will determine which vehicles will go to the Peshmerga or 
tribes.
    Separately, the Army has provided 250 MRAPs with an additional 50 
MRAPs to be delivered soon. Of these, 25 MRAPs have been provided to 
the Peshmerga via the Iraqi government with up to 16 more to be 
provided in the future.
    Most of this equipment is desired by the end of MAR 15. Given the 
very short timeline, most vehicles will be provided from existing Army 
stocks.
    The Iraqi Security Forces have and continue to struggle with 
maintaining all of their equipment, to include the vehicular fleet. 
Centralized maintenance facilities and lack of supply chain discipline 
continues to hamper Iraqi readiness rates across the board. To assist 
the Iraqis in maintaining their vehicle fleets, the Army provides spare 
parts, training, special tools, and contractor logistics support as 
part of the ITEF support with the ultimate goal of making Iraqi 
sustainment independent.
                               readiness
    Question. According to testimony, you are developing a readiness 
cycle to sustain a high level of readiness among Army National Guard 
units that are in their deployable status. In the absence of 
deployment, and given the cost-saving nature of the National Guard, 
could you elaborate, citing examples, on how the Army is ensuring that 
the readiness status of Guard units is sustained after they reach 
deployable status and its cost-saving capabilities leveraged, including 
for steady-state operational needs?
    Answer. In the last 12 months, we reduced the size of the Active 
Component (AC) from 532,000 to 503,000, with end strength set to fall 
to 490 thousand in fiscal year 2015; and then to 450 thousand. 
Similarly, the end strength in our Army National Guard is set to fall 
to 335 thousand and the Army Reserve to 195 thousand. But if 
sequestration returns, we will need to reduce end strength even further 
to 420 thousand in the AC by fiscal year 2020; and 315 thousand in the 
National Guard and 185 thousand in the Army Reserve. Yet, the reality 
we face is that the demand for Army forces throughout the world is 
growing while the size of the force is shrinking.
    The majority of our cuts are coming out of the active Army, and 
because of that, we are going to have to rely more on the National 
Guard and U.S. Army Reserves to provide us a depth to respond to 
complex problems. The issue is that we are going to have to rely on our 
Reserve forces more in some areas, such as in logistics. In terms of 
the combat capability, our Reserve forces are still going to have to 
provide us the depth. And we might have to use that depth earlier 
because we are going to have less capability in the active component. 
This all gets to this balance that we are trying to achieve.
    We are transforming our training strategies. Forces Command has 
begun to implement a comprehensive Total Force training strategy. We 
are pairing Brigade Combat Teams in the Active component with those in 
the National Guard--creating partnerships, increasing training 
opportunities, enhancing leader development, and reinforcing the 
importance of the Total Force.
    The Army National Guard is a vital component of the Total Army. 
Combined with the United States Army Reserve, they fulfill a critical 
role for the Total Force. Army National Guard units also fulfill a 
critical role for the governors of their States.
    The Army is committed to building readiness within each National 
Guard unit in order to provide ready units for both Federal and State 
missions. While the Active Component is best suited for unpredictable 
and frequent deployments, for dealing with complex operational 
environments, and for dealing with unexpected contingencies, the 
Reserve Component (RC) is best suited for predictable and infrequent 
deployments, for providing Title 32 support to State and local 
authorities, and for providing operational and strategic depth. The 
Army is committed to building readiness in these units on a predictable 
cycle to help Soldiers balance both their civilian and military lives.
    We recognize the significant contributions made by the ARNG and 
USAR as a part of the Total Force. We can ill-afford to allow the 
skills and competencies acquired by the RC over the past 14 years of 
war to atrophy. Our goal is to maintain the RC as an operational 
reserve, a key component meeting mission requirements at home and 
abroad. The Army continues to strive to increase the mix of RC 
formations at our Combat Training Centers (CTCs) and Warfighter events. 
The recent Bold Shift Initiative reorganized 1st U.S. Army to be more 
responsive to pre-mobilization training support for ARNG and USAR 
formations while retaining capability to conduct post-mobilization 
operations in order to provide RC personnel able to deploy world-wide 
in support of National interests.
    The Army has taken several actions to ensure the readiness status 
of Guard units is sustained and its capabilities fully leveraged. For 
example:
  --The Army currently has two National Guard Brigade Combat Teams 
        (BCTs) scheduled to attend CTC rotations in fiscal year 2015, 
        and two more in fiscal year 2016, in order to build the unit to 
        the highest levels of readiness and support contingency 
        responsiveness. These BCTs are not scheduled for deployment.
  --The Army is currently leveraging two National Guard BCTs to fulfill 
        operational requirements--the 41st Infantry BCT from Oregon and 
        the 72nd Infantry BCT from Texas. The Army plans to deploy one 
        more National Guard BCT in fiscal year 2015--the 30th Armored 
        BCT from North Carolina. In addition, the Army plans to 
        leverage two National Guard BCTs in fiscal year 2016--the 53rd 
        Infantry BCT from Florida and the 45th Infantry BCT from 
        Oklahoma--to fulfill steady state operational requirements, 
        including deployments.
  --The Army uses, and plans to continue using, RC headquarters--the 
        76th Operational Response Command (Army Reserve) and the 38th 
        Infantry Division from Indiana (National Guard) to provide 
        Command and Control for the CBRN Response Enterprise. In 
        addition, the Army plans to leverage a National Guard Division 
        Headquarters--the 34th Infantry Division, from Minnesota--to 
        fulfill the command and control responsibilities of a deployed 
        mission in fiscal year 2015.
  --Other National Guard capabilities, including Fires, Sustainment, 
        Air Defense, Aviation, and some Engineers are fully utilized in 
        support of ongoing operational requirements. In addition, the 
        Army strives to increase the mix of these RC units at CTC 
        rotations and Warfighter events.
    Budget limitations and the threat of sequestration currently 
prevent the Army from building additional readiness in the Guard.
    The Army is developing a new readiness model, in full transparency 
and coordination with the National Guard Bureau. The Army's new 
readiness model will empower commanders at all echelons to build and 
sustain higher levels of readiness and will clearly articulate the 
Army's use of the National Guard to meet steady-state operational 
requirements and requirements for contingency response. Consistent with 
the Army's Total Force Policy, our goal is to maintain the RC as an 
operational reserve and integrate both mission and contingency forces 
across all components.
                              tow missiles
    Question. As the Army phases out the TOW missile can you tell me 
about the progress towards identifying a replacement and when the Army 
expects the TOW missile to be taken out of service?
    Answer. The Army will procure TOW missiles each year in fiscal year 
2016-2020 with a plan to phase out the TOW missile in the 2029-2031 
timeframe. For the future, the Army will invest in science and 
technology research to assess future missile requirements for the 
period beyond fiscal year 2029.

                          SUBCOMMITTEE RECESS

    Senator Cochran. The Defense Subcommittee is going to 
reconvene on Wednesday, March 18, at 10:30 a.m. to receive 
testimony from the Missile Defense Agency.
    Until then, the subcommittee will stand in recess.
    [Whereupon, at 11:56 a.m., March 11, the subcommittee was 
recessed, to reconvene at 10:30 a.m., Wednesday, March 18.]
</pre></body></html>
